<html>
<title> - EXAMINING MANAGEMENT PRACTICES AND MISCONDUCT AT TSA: PART II</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







     EXAMINING MANAGEMENT PRACTICES AND MISCONDUCT AT TSA: PART II

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 12, 2016

                               __________

                           Serial No. 114-136

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-508 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                                
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
Christina Aizcorbe, Transportation and Public Assets Subcommittee Staff 
                                Director
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 12, 2016.....................................     1

                               WITNESSES

Mr. Peter Neffenger, Administrator, Transportation Security 
  Administration
    Oral Statement...............................................     7
    Written Statement............................................    10
Mr. John Roth, Inspector General, Department of Homeland Security
    Oral Statement...............................................    21
    Written Statement............................................    23

 
     EXAMINING MANAGEMENT PRACTICES AND MISCONDUCT AT TSA: PART II

                              ----------                              


                         Thursday, May 12, 2016

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:01 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, Gowdy, Lummis, Massie, Meadows, 
DeSantis, Mulvaney, Buck, Walker, Blum, Hice, Russell, Carter, 
Grothman, Hurd, Palmer, Cummings, Maloney, Clay, Lynch, 
Connolly, Kelly, Lawrence, and DeSaulnier.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    We have an important hearing today. The public comes in 
regular contact with the Transportation Security 
Administration. We have a fairly new administrator who I have 
had a chance to visit with, but it is important as the 
Oversight Committee that we continue to take a look at what is 
happening or not happening at the TSA.
    So today, we are going to have our second hearing examining 
the management practices and misconduct that we have heard 
about and seen about and investigated at the Transportation 
Security Administration.
    And this time of year the traveling public picks up kids 
and families, and people are traveling sometimes at record 
levels. People get frustrated. They go to airports, there are 
long lines, there is frustration, but at the same time we have 
to find a balance to make sure that those airplanes are 
properly secure because the enemy, terrorists and whatnot, they 
only need to get by once. And they deal with millions of 
passengers on a weekly basis at the TSA.
    We have a lot of good men and women who serve on the 
frontlines who are trying to do the best job that they can and 
dealing with a frustrated public sometimes it is hot and they 
are sweaty and they are late, and there are a lot of issues to 
deal with.
    Last summer, the Department of Homeland Security inspector 
general performed a covert testing of TSA's airport security 
screening and found ``failures in the technology, failures in 
TSA procedures, and human error.'' There were very alarming 
rates of success for penetration beyond the lines in being able 
to bring something nefarious onto an airplane.
    Although some of the inspector general's recommendations 
are still outstanding in the wake of the testing, the TSA 
claims they are making progress and training its employees to 
be more thorough in resolving these security concerns, yet the 
progress may be undermined if TSA employees continue to quit at 
their current rates. The agency loses around 103 screeners each 
week through attrition. As the administrator has told me, a lot 
of these are part-time employees. But nevertheless, it is very 
expensive to get somebody trained up and bring on to only have 
them leave later on in the process.
    In the year 2014 the agency hired 373 people but had 4,654 
departures. You can see where--if you think of it as a bathtub, 
if you are pouring water into it but the drain is going out 
faster than you can keep people in that tub, that there gets to 
be a problem.
    We are very concerned about the morale at the 
Transportation Security Administration, the TSA. The government 
does do, I think, a good thing. It goes out and ranks and does 
surveys and comes up with a scientific way to assess the 
various agencies. Of the 320 agencies, the TSA ranked 313th. 
This is an alarming trend throughout Homeland Security, not 
just the TSA. There are a number of these agencies, including 
the Secret Service and others, that are near the very, very 
bottom of agencies that are ranked.
    It is something that has to be assessed. And there are 
probably reasons for this, and we want to understand that. We 
have a duty and obligation to the Federal employees, and you 
worry that people in a security type of situation with low 
morale, you don't necessarily get the best security and the 
best product out of that.
    Two weeks ago, one of our witnesses testified that he 
believed ``while the new administrator of the TSA has made 
security a much-needed priority, once again, we remain an 
agency in crisis.'' He attributed poor leadership and oversight 
of senior leadership appointments in the last several years as 
major contributing factors. In testimony before this committee 
he alleged a double standard within the TSA. We have heard 
senior leaders in the agency are treated with far more leniency 
than the TSA's rank-and-file employees.
    Now, we have one situation. I don't know this man; I don't 
believe I have ever met him. If I did, I again don't remember 
it. But he is a very senior person. As the assistant 
administrator of the Office of Security Operations, there is a 
gentleman, his name is Kelly Hoggan. He receives a base 
compensation of $181,500, a very healthy salary. Since his 
promotion to that position in 2013, security operations at TSA 
have been abysmal.
    Again, the inspector general I think we will hear testify 
today the penetration tests that were done previously were 
nothing close to successful. They were successful in getting 
objects and items through security, but they were, from a 
security standpoint, absolutely rock bottom in terms of their 
performance.
    Yet during this time, in September 2014, the inspector 
general found that despite spending $551 million on new 
equipment and training, the TSA had not improved its checked 
baggage screening at all since the IG report found 
vulnerabilities in 2009.
    Last summer, covert testing by the inspector general 
revealed an alarming high-rate failure rate that was widely 
reported by the media. Yet whistleblowers reported that instead 
of being held accountable for those failures, Mr. Hoggan 
received an amazing amount of bonuses beginning in 2015.
    I want to show you a slide here.
    [Slide.]
    Chairman Chaffetz. Not to pick on this person, but this is 
what is so frustrating, and the rank-and-file sees this. He is 
earning a base salary of $181,500, and in 13 months he gets 
$90,000 in bonuses. That is just his bonuses. Nine times he is 
getting bonuses over a 13-month period. That is in addition to 
his health care and all the other things, retirement that he 
will get. People don't understand that.
    Let me go to this next slide.
    [Slide.]
    Chairman Chaffetz. So here you have John Halinski, who I 
don't believe works at the Administration anymore. He makes a 
recommendation to the person at the bottom, a guy named Joseph 
Salvatore, who makes a recommendation that Kelly Hoggan get a 
bonus, and then Halinski, who made the recommendation to 
Salvatore, Salvatore recommends Hoggan get a bonus and then 
Halinski gives him that bonus. It happened four times.
    Go back if you could to that first slide.
    [Slide.]
    Chairman Chaffetz. So you got rank-and-file people working 
hard, trying to do the right thing. We have massive security 
failures based on what the inspector general is doing, and this 
person at the senior part of the food chain gets $90,000 in 
bonuses. I don't understand that. This didn't even necessarily 
happen during this administrator's watch, but we want to know 
what is being done to clean this up.
    If you can go to the next--you can take that slide down. 
Thank you.
    So how did he get this done? In the normal scenario, the 
President has to approve any bonuses over $25,000. OPM has to 
approve bonuses over $10,000, and yet Title 5 in OPM 
regulations don't apply to the TSA, and that is why I think we 
are going to have to go back and review this.
    When the IG investigated that after a whistleblower tip it 
found in July of 2015 TSA had no clear policies prohibiting an 
arrangement such as we had just seen and only ``loose internal 
oversight of the awards process.'' I hope we are going to hear 
that this has been cleaned up and that they can be more fair 
and more equitable and truly rewarding those people that are 
having success. The frustration is it is not as if we have had 
success. Those bonuses were given to somebody who oversees a 
part of the operation that was in total failure. This is 
contributing, I think, to the massive problems of morale and 
other challenges that we have.
    Administrator Neffenger has many challenges to overcome in 
restoring the confidence of the rank-and-file, and even the 
perception that some current leaders have been part of the 
problem can continue to harm morale within the ranks of the 
TSA. More significantly, it can deter TSA employees from 
speaking up about security challenges, which ultimately impacts 
the core responsibility of the agency to keep America's 
transportation safe.
    Last November, the inspector general testified ``creating a 
culture of change within TSA and giving the TSA workforce the 
ability to identify and address risk without fear of 
retribution will be the new administrator's most critical and 
challenging task and something I am sure that we are going to 
talk about today.
    Chairman Chaffetz. You know, we have somebody on our panel 
who has spent considerable time dealing with the TSA and 
transportation. It was the chairman of the Transportation 
Committee here in the Congress, and I would like to yield some 
time to Mr. Mica of Florida.
    Mr. Mica. Well, thank you, Mr. Chairman and ranking member, 
for conducting this part II. There are some very serious 
concerns about performance of TSA, the first hearing that you 
held just a few weeks ago. We had, for the first time since we 
created TSA, people who came in from responsible positions and 
were willing to testify to the almost sheer chaos that exists 
both in the management and also the operations.
    Of course, I expressed my concern about the meltdown that 
we have had to date, and I had prepared actually yesterday--and 
staff had gotten me like one figure during the break. We had 
6,800 American Airlines passengers miss their flights due to 
checkpoint delays, and that is sort of--you know, we hear that, 
Members of Congress and others. Well, last night, I had the 
night from hell. I had three people who I invited to Washington 
who came to Washington, spent most of the day with me. All of 
them missed their flights standing in a TSA line. I tell you 
what. I am so livid.
    And Wednesday night is a particularly bad night. Now, 
traffic was bad. They were late getting there. The TSA people 
wouldn't have the courtesy to accommodate people who could have 
caught their flight even though they were somewhat late. The 
plane was there. I was on the phone for hours. One of the 
individuals whose family is leaving on vacation today had to 
get back to Orlando to accompany his family. I actually had a 
staffer drive him and bought him a ticket home last night. So I 
could put a face on it.
    And you can't get a hold of a damn person in TSA even as a 
Member of Congress, nor would they take your calls. I tell you 
what, it is just unbelievable, the operation. And you have got 
your $100,000 people standing around accommodating Members of 
Congress to get them on a plane and you can't get a passenger 
on a plane who has to get home to leave with his family.
    I want a list of all of those people standing around that 
chauffer Members of Congress and VIPs up to the front of line, 
and you can't get three people, one lady with some physical 
disabilities. I tell you what. I am so disgusted with this. It 
makes you, Mr. Chairman, lose your focus.
    But let me go back to you can delay these people and then 
here is my GAO report, ``17 known terrorists have flown on 24 
different occasions'' passing through your TSA. What was the 
very most troubling of the testimony that I heard--and you can 
fail and you will fail and your attempts on the training and 
recruiting and all that will be a failure, I can tell you that. 
Now, I told you that on my sofa when you came in because you 
cannot recruit, you cannot train, you cannot retain, and you 
cannot administer. It is just a huge failing government 
program, and it will fail.
    But the most troubling thing was the testimony from Mark 
Livingston, former assistant administrator for TSA's Office of 
Intelligence and Analysis who testified, ``It is my testimony 
today that we have non-intel professionals running our Office 
of Intelligence and Analysis.'' That is the core of the 
government responsibility, connecting the dots. And he is 
telling us--and I questioned him about what was going on, and 
he is saying that that important government function, the most 
important government function, to find the bad guys, not stop 
the innocent 99 percent of the travelers, that we have chaos in 
that operation.
    I yield back, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I now will recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    There have been few times in my 20 years on this committee 
that I have felt so strongly about an individual. Administrator 
Neffenger is a person who I have a phenomenal amount of respect 
for. When I was the chairman of the Subcommittee on the Coast 
Guard and Maritime Matters, it was Mr. Neffenger, Admiral 
Neffenger, who cleaned up a mess called Deepwater Horizon where 
the Coast Guard was buying ships that didn't float, rid our 
systems that were supposed to have surveillance of 360 degree 
with 180 degrees, radios that when they got wet, they didn't 
work. He cleaned up the mess and saved this country and the 
Coast Guard probably hundreds of millions of dollars. And, sir, 
no matter what happens in this hearing, I thank you. I really 
do.
    Last month, our committee heard testimony from three 
Transportation Security Administration employees. They raised 
troubling allegations about personnel practices that stretched 
back several years in some cases. The employees who came 
forward deserve to have their allegations thoroughly and fairly 
investigated. And I emphasize that. It is one thing to allege, 
but we need all the facts so that we can be about the business 
of not only hearing testimony but bringing about the reform 
that is necessary. And I am sure you would agree with that, Mr. 
Roth.
    Unfortunately, the committee has not yet had the 
opportunity to fully examine or substantiate their claims. And 
let me pause here for a moment.
    Mr. Roth, in your testimony, I want you to do me a big 
favor and I want you to do a big favor for this committee. I 
want you to distinguish between what happened pre-Neffenger, 
Admiral Neffenger, and post-. The chairmen spent, and 
rightfully so, a good amount of time talking about the $90,000 
bonus. There is probably nobody in this Congress who has railed 
against bonuses going all the way back to AIG than I have. And 
so I want to make sure that we are putting responsibility where 
responsibility belongs. I hope you will do that.
    Nevertheless, during our previous hearing, I was struck by 
how highly those whistleblowers speak about our witness today, 
Vice Admiral Peter Neffenger, the administrator of TSA. Despite 
their understandable frustration about what they endured, these 
whistleblowers repeatedly told the committee that Administrator 
Neffenger was taking positive steps at TSA. They made clear 
that he is setting a course for the agency that puts the top 
priority exactly where it should be, on security.
    For example, Mark Livingston, a program manager in the 
Office of the Chief Risk Officer, testified that Administrator 
Neffenger is ``a man of integrity.'' He also said, ``TSA is not 
going to compromise our mission to expedite passengers at the 
expense of our mission.'' He went on to say, ``What we are 
going to do is we are going to get better, we are going to keep 
pushing pre-check, we are going to keep pushing a better 
process, we are going to get more people and we are going to 
get better at this. Mr. Neffenger has made it his priority.''
    Similarly, Jay Brainard, a Federal security director in the 
Office of Security Operations in Kansas, testified, and I 
quote--now, these are whistleblowers. ``Certainly, since Mr. 
Neffenger has been in, there has been a shift to security and 
trying to get that pendulum to go back so we strike a 
balance.''
    Mr. Brainard also said, ``It is important for us to make 
sure that we reassure our officers so that, regardless of the 
fact, that somebody is going to have to wait a few extra 
minutes, we still have their back. And we have an administrator 
who fully supports that, and that is part of the culture that 
he has established with TSA. That is a very difficult job. It 
is certainly not the most popular job, and we certainly 
appreciate it.''
    I have to say that during my many years here on the 
Oversight Committee, I have rarely seen employees 
simultaneously come forward to report what they believe to be 
abuses while at the same time commending an individual who is 
in charge of the agency for his efforts to address them so 
vigorously. I can never remember that in these 20 years, and I 
have been at just about every minute of all the hearings.
    Admiral and Administrator Neffenger testified last November 
that TSA faces ``a critical turning point.'' And I agree. He 
cannot turn around this agency on a dime. I wish he could. I 
don't think anybody up here could. But in the 10 months he has 
been on the job, and I emphasize 10 months, he has taken bold 
action to address the challenges he inherited.
    For example, in February, he halted all directed 
reassignments currently in process. If you remember the 
committee when a lot of the complaints were about people who 
felt that they were being punished and being retaliated against 
by being moved from place to place. The wife would be sent to 
the Northeast and the husband be sent to the Southwest and all 
kinds of mischief. And so I am glad you addressed that, and I 
hope that you will talk about that a bit today because it was a 
large part of our hearing.
    In March, he issued a memo that requires new reviews and 
approvals whenever a directed reassignment is requested. He 
strengthened TSA's controls over special achievement awards, 
more transparency to the Executive Resources Council, and 
appointed a chief operating officer to oversee the assistant 
administrators in charge of agency's operating divisions. 
Critically, he has worked diligently to address the security 
shortcomings identified by Inspector General Roth, who is also 
with us today. And I truly have a tremendous amount of respect 
for you, Mr. Roth.
    He retrained all screening personnel, including managers, 
and created a new academy to train newly hired screeners. As 
Inspector General Roth testified last November, ``He has 
deactivated certain risk assessment rules that granted 
expedited screening through pre-check lanes.''
    However, despite all of these positive changes, the number 
of screeners has dropped by nearly 6,000 over the past 4 years. 
And I agree with the chairman. That is something that we all 
should be concerned about. We all need to get to the bottom 
line of why that is happening. We want to retain our folks. And 
I am hoping that it is not a situation that the chairman and I 
found with the Secret Service where people had gotten to a 
point because they did the same job over and over and over 
again. I at least concluded that they had moved into a culture 
of complacency, and sadly, mediocrity.
    Of course, the TSA has to do its job, but Congress has to 
do ours as well. Congress wants to ensure that this agency has 
the resources it needs to accomplish the security mission, and 
I want you to let us know whether you do have the resources, 
including rightsizing the number of screeners. I look forward 
to hearing from Administrator Neffenger about what more he 
needs to continue the improvements he has put in motion. And I 
anxiously look forward to hearing from Mr. Roth about the work 
he is undertaking to assess these changes.
    I do believe that we are well on our way to making the TSA 
a better organization, and if it is a morale question, I would 
like for you to address that forthrightly, Mr. Neffenger, 
Admiral Neffenger, and let us know what you plan to do about 
that.
    With that, Mr. Chairman, I want to thank you, and I yield 
back.
    Chairman Chaffetz. I thank the gentleman. I will hold the 
record open for 5 legislative days for any members who would 
like to submit a written statement.
    I now recognize our witnesses of today's one panel. I am 
pleased to welcome Mr. Peter Neffenger, administrator of the 
Transportation Security Administration; and Mr. John Roth, 
inspector general of the Department of Homeland Security. We 
welcome you both.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. You have each testified here previously, 
but if you would please rise and raise your right hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. Let the record reflect that 
the witnesses each answered in the affirmative.
    As you know, we like to limit the oral testimony to 5 
minutes, but of course your entire written statement will be 
entered into the record.
    Mr. Neffenger, Administrator Neffenger, you are now 
recognized for 5 minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF PETER NEFFENGER

    Mr. Neffenger. Thank you. Good morning, Chairman Chaffetz, 
Ranking Member Cummings, and distinguished members of the 
committee. Thank you for the opportunity to appear before you 
today. I sincerely appreciate the committee's oversight of the 
management practices at TSA. This issue has been of great 
concern to me as well. I commit to you and the American people 
that, under my leadership, TSA has established high standards 
of performance and accountability.
    I also want to thank Inspector General Roth for his 
support. I greatly value the oversight that his office provides 
to improve our agency, and I have been working closely with him 
during my tenure.
    My leadership perspective is shaped by more than three 
decades of national service in crisis leadership. Throughout my 
career, I have emphasized professional integrity and duty to 
mission as foundational elements of service for myself and for 
the dedicated civil servants and military members I have been 
entrusted to lead.
    Since taking the oath of office on July 4 of last year, I 
have traveled throughout the country and around the world to 
meet with employees at all levels of our agency. I have been 
impressed by their patriotism and their sense of duty. These 
are servants who every day perform demanding tasks under 
difficult circumstances, and I deeply respect and appreciate 
their work. They have risen to the challenge of service to a 
mission and have taken an oath of office and loyalty as a 
condition of employment. Their success requires the utmost 
professionalism from all of our employees from frontline 
officers to the most senior leaders.
    My overarching priority is to fulfill the core mission of 
TSA to secure the Nation's transportation systems. In just 10 
months we have undertaken a range of transformational efforts. 
I immediately prioritized our counterterrorism mission. I set a 
renewed focus on security, revised alarm resolution procedures, 
made investments in new technology, and retrained the entire 
workforce.
    We are holding ourselves accountable to high standards of 
performance and are supporting our frontline officers in their 
critical counterterrorism mission. We have reinvigorated our 
partnerships with the airlines, airport operators, and the 
trade and travel industries and are working closely with 
Congress to address our security mission.
    We simultaneously undertook a broad evolution of the entire 
TSA enterprise with respect to that mission and our people. I 
am systematically and deliberately leading this transformation, 
and I have made it clear that we are focused on our security 
mission.
    Most importantly, I am investing in our people. With 
Congress's help, I directed a complete overhaul of our approach 
to how we train our workforce at all levels of the agency. We 
establish the first-ever TSA Academy on January 1 of this year. 
This intensive training will enable us to achieve consistency, 
develop a common culture, instill core values, and raise 
performance across the entire workforce. Establishing a culture 
of mutual respect and trust between leaders in the workforce 
instills confidence and pride and is a prudent investment in 
the future of the agency.
    I also ordered a review of all personnel policies and 
practices. This led to a number of significant changes, among 
which are elimination of the arbitrary use of directed 
reassignments, restrictions on permanent change of station 
relocation costs, and significant controls on bonuses at all 
levels.
    We are overhauling management practices. I've conducted an 
independent review of our acquisition programs. We're building 
a planning, programming, budgeting, and execution process, and 
we're building a human capital management system to address 
recruitment, development, promotion, assignment, and retention.
    And to ensure the effective integration of our leadership 
team, I have brought in new leaders from outside the agency, a 
new deputy administrator, new chief of staff, a chief of 
operations, a new head of intelligence, and other key 
positions. And with respect to intelligence, I want to note 
that our intelligence office just received a very prestigious 
award from the National Counterterrorism Center for the work 
that they have done to analyze recent attacks on the aviation 
system.
    I assure this committee that under my leadership TSA treats 
its employees fairly and affords them every legal and available 
means to exercise their due process rights. We review 
management controls regularly, revise them when needed, and 
fully investigate and adjudicate misconduct at every level, and 
I hold those who violate standards appropriately accountable.
    With respect to leadership, my experience tells me that 
good leaders set high standards and inspire people to perform 
at their best. I have demanded much of my leaders over the past 
10 months. I have set high standards for them. I expect them to 
work hard, and I supervise them closely.
    Finally, we must deliver a highly effective intelligence-
driven counterterrorism and security capability every day. To 
do so, we must have fully trained, highly motivated, 
professional employees supported by a mature and efficient 
agency with a common set of values. My guiding principles, 
which I expressed in my administrator's intent, are focused on 
mission, invest in people, and commit to excellence.
    We are pursuing these objectives every day. As 
administrator, I will continue to do so until we achieve and 
sustain success in every aspect of this agency, in every 
mission, in every office and location where we operate, and 
with every single employee.
    Thank you for the opportunity to appear before you today 
and for the committee's support of TSA's mission. I look 
forward to your questions.
    [Prepared statement of Mr. Neffenger follows:]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
   
    Chairman Chaffetz. I thank the administrator.
    I will now recognize Inspector General Roth for his 
testimony. You are now recognized for 5 minutes.

                     STATEMENT OF JOHN ROTH

    Chairman Chaffetz, Ranking Member Cummings, and members of 
the committee, thank you for inviting me here to testify this 
morning.
    One year ago, I testified before this committee at a 
hearing on TSA's programs and operations. During that hearing, 
I testified that we remain deeply concerned about TSA's ability 
to execute its important mission. I noted that TSA had 
challenges in almost every area of its operations. At the time, 
I testified that TSA's reluctance to correcting security 
vulnerabilities that our audits uncovered reflected TSA's 
failure to understand the gravity of the situation.
    Six months ago, I testified before this committee and 
stated that I believe that the new administrator had begun the 
process of critical self-evaluation and, aided by the dedicated 
workforce of TSA, was in a position to begin addressing some of 
these issues. I predicted that the new administrator's most 
critical and challenging task would be to create a culture of 
change by giving the workforce the ability to identify and 
address risks without fear of retribution.
    Today, I still believe that to be true. However, we should 
not minimize the significance of the challenges that TSA faces 
and the grave risks that failure brings. The task is difficult 
and will take time. In the meantime, my office will continue to 
conduct audits, inspections, and investigations and bring an 
independent look and professional skepticism to our reviews, as 
we are required to do.
    In light of part I of the committee's hearing, I would like 
to discuss our office's work in investigating misconduct within 
the TSA workforce. As you know, we are organizationally 
independent from both DHS and TSA, and as such, have a crucial 
role in ensuring that crimes and serious misconduct will be 
investigated by an independent fact-finder.
    The department employs more than 400--240,000 employees and 
an equal number of contractors. We have fewer than 200 
investigators onboard and available to conduct investigation, 
so this amounts to approximately 2,000 employees for every OIG 
investigator. In fiscal year 2015 we received almost 18,000 
complaints, about 350 complaints per week. A substantial number 
of those complaints alleged that DHS personnel engaged in 
misconduct. Last year, we initiated 664 cases, and our 
investigations resulted in 104 criminal convictions and 37 
adverse personnel actions. Some of these investigations 
involved TSA personnel.
    In the last fiscal year, we received about 1,000 complaints 
either from or about TSA employees. We typically accept for 
investigation only about 40 of those cases per year. Our 
criteria for case selection involves an assessment of the 
seriousness of the allegation, the rank or grade of the 
individual involved, and whether OIG's uniquely independent 
role is necessary to ensure that the case is handled 
appropriately.
    We value the contributions that whistleblowers make in 
identifying fraud, waste, and abuse. Federal law provides 
protections for employees who disclose wrongdoing. 
Specifically, the agency may not retaliate against employees by 
taking or threatening to take adverse personnel action because 
they report misconduct. The IG act also gives me the absolute 
right to protect the identity of our witnesses upon whom we 
depend to expose fraud, waste, and abuse.
    In TSA, for example, we investigated a whistleblower's 
allegation that a notorious felon was granted expedited 
screening through pre-check. The traveler was a former member 
of a domestic terrorist group and while a member was involved 
in numerous felonious criminal activities that led to arrest 
and conviction. After serving a multiple-year sentence, the 
traveler was released from prison.
    The TSA officer gave us the tip because the officer 
recognized the traveler from news coverage. We investigated it 
and found that the officer was correct. Because of TSA's 
policies at the time, this traveler was given expedited 
screening. We were able to write up a report and give 
notification both to the Department and Congress, including 
this committee.
    Thanks in part to this whistleblower's complaint, we were 
able to illustrate the dangers of this policy, and TSA has 
ultimately rethought the issue of managed conclusion.
    I would also note that the chairman's description of the 
bonuses that Mr. Hoggan received in our investigation of it was 
as a result of an alert DHS employee who notified us of that 
situation.
    When I arrived at OIG about 2 years ago, I was concerned 
about how we had been managing our whistleblower protection 
program. My goal is to make sure that we have a whistleblower 
program that is good or better than any in the Federal 
Government. To that end, we have instituted a number of changes 
in the last 6 months to ensure that whistleblowers with claims 
of retaliation are listened to and that their claims are fairly 
and independently investigated.
    Mr. Chairman, this concludes my testimony. I welcome any 
questions you or other members of the committee may have.
    [Prepared statement of Mr. Roth follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    Chairman Chaffetz. We thank you both and now recognize Mr. 
Mica of Florida for 5 minutes.
    Mr. Mica. I am sure, Administrator, you have heard or 
watched the proceedings when we had three TSA officers in here. 
As I said in my opening remarks, one of my major areas of 
concern is your intelligence and analyst office and that 
capability. I had never heard more damaging testimony than I 
heard under oath on that matter.
    And we have detailed information that we have acquired 
about some of the personnel that are there, and obviously, the 
qualifications and the background are lacking. What do you want 
to say to this?
    Mr. Neffenger. Congressman Mica, thank you for the 
question. I had questions about the capabilities across the 
entire organization when I first came in, as you know.
    Mr. Mica. And are you currently reviewing the 
qualifications and the allegations?
    Mr. Neffenger. I am. I have a new chief of intelligence 
that I brought in who is an intelligent professional. He's 
here. I can report that ----
    Mr. Mica. I think that I would like an outline to the 
committee. I mean, the screening function is fine and you may 
find some knives and some guns. They are not going to take down 
an aircraft. But intelligence is a government responsibility. 
We don't have good intelligence, and again, I cited an older 
GAO report where known terrorists are going through the system. 
This was a risk-based system. So can you provide us with an 
outline of what you intend to do to correct this situation?
    Mr. Neffenger. Yes, sir, and I'll also provide you with 
examples of how we have to build an intelligent enterprise, 
which I think is one of the best in the country now. And I can 
say that ----
    Mr. Mica. Well, again ----
    Mr. Neffenger.--it's been recognized recently by the 
National Counterterrorism Center with one of their prestigious 
awards for the ----
    Mr. Mica. Well, again ----
    Mr. Neffenger.--analysis that they've done.
    Mr. Mica. Again, it is just most troubling.
    The other thing TSA has been giving this line. I have seen 
it in the press that it is a lack of funds that right now 
create some of the problems in the lines. That has been put out 
by TSA, hasn't it?
    Mr. Neffenger. No, sir, I have not said that it's a lack of 
funds.
    Mr. Mica. Well, I have seen it from TSA. It is actually 
staffing. Last night, like at Reagan, at seven o'clock they 
closed some of the lines. TSA cannot staff to traffic. So, I 
mean ----
    Mr. Neffenger. Let me ----
    Mr. Mica.--I've seen it all over. I had an anecdotal report 
last week of a Member that told me that at one airport they 
were backed up, lines forever. The other side of the airport 
there was a concourse and there were not thousands standing 
around but everybody standing around and someone can't shift 
them. And in the lanes that the individual was leaving in, two 
were closed. I have been at National airport. I have seen the 
same thing. People can't make a decision to staff to traffic.
    The other thing, too, is we have got to look at the money 
that you are spending. The last account I had we were spending 
$1.1 billion on administration and $1.9 billion on screening. 
That is a lot of administration. We need to pare those numbers 
down. The bonuses that the chairman said, $80,000. I asked the 
staff, well, how much can we pay screeners? If you are losing 
30 percent of the screeners--30 percent of the screeners and 38 
percent of the non-TSO employees leave their job within 1 year. 
So you could be training these people, and like the chairman 
said, you have got a boat, you know, with a leak in it, it is 
going to sink.
    But again, how much is a--let me ask this question. How 
much is the bonus you can give to a screener? I am told $300 a 
year.
    Mr. Neffenger. No, it can be higher than that. I don't have 
the exact number for it.
    Mr. Mica. Can someone tell us the exact amount?
    Mr. Neffenger. Yes, sir, I will ----
    Mr. Mica. But I am told it is about $300 year. If you are 
giving--that guy got--we will knock off the one month, so he 
got $80,000 in bonuses, and I have got people that are doing 
the work, not sitting in an office.
    And I want a full accounting of all the people working in 
the Washington area. At one time there were 4,000 people within 
like 10 miles of here working for TSA making on average 
$103,000. I would like that figure into the record. Can you 
provide us with that?
    Mr. Neffenger. Yes, sir, we'll provide that.
    Mr. Mica. And then finally, I am not a management analyst, 
but these folks testified, too, that you went from a risk-based 
system to the system we see out there with these long lines and 
everything. We have got the summer coming and they said if you 
think, what was it, the day after Thanksgiving was bad, that we 
are going to see that every day. What is plan B? We have gone 
from a risk-based system down to shaking and thoroughly 
examining everyone and no Plan B. Can you tell us about Plan B?
    Mr. Neffenger. Well, we're still a risk-based system. In 
fact, we still have TSA pre-check. We are growing that 
population. It's a--we're doubling--we've doubled the 
enrollment of that population over the last year, and the risk-
based approach is the more people I get into the Trusted 
Traveler Program, the more I can move them through expedited 
and the more we can focus on those who aren't.
    We discontinued the practice of arbitrarily assigning and 
randomly assigning people from an unknown population into that 
expedited population. That was called managed inclusion. That 
pushed a lot of people back into the standard screening lanes.
    We have a significantly larger population of travelers this 
year than we had previously, and it's grown substantially. It 
grew faster, at a higher rate, than was predicted by those who 
set the predictions for our budgets, which have been built, as 
you know, in the past.
    The--when I came into this organization last year, I found 
an organization with 5,800 fewer screeners and it had had fewer 
frontline officers than it had had 4 years previously. And that 
was in the face of significantly higher traffic volume. And one 
of the first things I asked Congress to do was to halt any 
further reductions to the workforce because it was my suspicion 
that we did not have enough people to staff our lanes. And my 
suspicion was correct. We do not have enough people currently 
to staff our lanes.
    Mr. Mica. I ----
    Mr. Neffenger. And we have been systematically scrubbing 
our budget to hire more.
    Mr. Mica. I respectfully disagree and yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. Thank you, Mr. Chairman, for calling this 
important hearing. Nothing is more important than securing the 
lives of American people.
    And I want to thank Admiral Neffenger and IG Roth for your 
work to really make the TSA security system more effective.
    I would like to remind my colleagues that TSA was built not 
for speed or created by government but to protect our citizens. 
Almost 3,000 people just in New York City alone were murdered 
on 9/11 merely because they woke up and did what each one of us 
are doing today in this room. They went to work, sat at their 
desks, and they were murdered not on a military site but at 
their worksite. And this happened at other sites around the 
country.
    And if you remember--I would go to the airport just to see 
what was going on. It was closed down. No one would fly. Our 
commerce was crumbling; our air system was totally dead. 
Everything was dead until government came in and started 
putting security measures in place to protect the American 
people.
    Five hundred of my constituents died on 9/11 and hundreds 
of friends and acquaintances of mine merely because they were 
Americans going to work. This is horrifying. And we know that 
our airlines continue to be a terrorist target. We know. I 
talked to the pilots. They tell me they continue to test the 
system all the time to see if there are weaknesses. And they 
find that often after they leave the plane and see where they 
were meddling.
    So I want to thank both of you for your focus on security.
    I would also like to remind my colleagues that when we 
created TSA it was hotly debated for months. There was a 
division between both sides of the aisle. Some thought it 
should be privatized. Others thought the government should have 
this responsibility since our main responsibility is to protect 
our citizens. If our police and our fire are maintained and 
supported by the government, surely the TSA that plays a vital 
role of making sure that America doesn't get on a plane that is 
going to blow up should have that same type of support from the 
Federal Government.
    So I want to thank Mr. Neffenger for your statements before 
this committee where you--and I am going to quote you because I 
thought it was such a good line. You said you are ``readjusting 
the measurements of success to focus on security rather than 
speed.''
    And I will say to you I don't see TSA pandering to any 
passengers. I get stopped all the time. Sometimes I say why am 
I being stopped? They said it is a random number. You are that 
random number. Sometimes the bells go off. But like every other 
American, I have not seen anyone protest the fact that they 
were stopped. They realize that they are there to help make it 
more secure for us.
    And I study the lines, like all of us. I travel every week 
back and forth. And we have long lines. TSA has really helped. 
The pre-check, sometimes the pre-check line is longer than the 
other lines. The pre-check line is really growing, as you said.
    But I have studied my fellow residents, and I don't see 
them angry. If they lose their flight, miss their flight, they 
should have been there earlier. We are all supposed to be there 
an hour earlier. We rarely are there an hour earlier. And they 
are not upset. They realize that they are stopping people to 
make sure they don't get killed when they get on that plane.
    So I for one just want to support the oversight strength of 
our nation. The IG's office came out saying it wasn't strong 
enough for security. The admiral has responded. He has 10 
points that he is implementing. And I just want to ask Admiral 
Neffenger, what adjustments have you made to ensure that 
screeners are assessed on the security results that they 
achieve?
    And I want to reiterate I have never, never since 9/11--it 
has been 15 years. I have never seen a resident or foreigner, 
whoever is in that line, object that they are being stopped or 
that someone else is being stopped, and because of their 
feeling that there is an emergency, they may miss their plane. 
The one complaint I hear is it secure enough? What is the 
oversight? Every now and then someone gets on a plane with a 
knife or some weapon and it gets all over the papers and people 
start calling my office how did this happen? Because if people 
do not believe that their planes are secure, they are not going 
to fly. Commerce is going to hurt, the country hurts. And fear 
is terrible and undermining the American spirit to get things 
done.
    So I really want to know what are you doing to improve 
security? If you need more people, let us know and give us a 
report on how you can keep the security at the top level but 
you may have to have more people. I just know in New York it is 
a busy place, but oftentimes, there are only one or two lanes 
open because they don't have the people to staff the other 
lanes. But no one is complaining about a pressure on security. 
You know, I want to thank you for the job you do.
    Chairman Chaffetz. The gentlewoman's time ----
    Mrs. Maloney. If anything, it should be tougher in my 
opinion.
    Chairman Chaffetz. The gentlewoman's time is expired, but 
the administrator may answer.
    Mr. Neffenger. Thank you. I'll provide a further comment 
for the committee's record, but let me just highlight a few 
points that we're doing. As you know, following the results of 
the IG's test last year, the first thing we did was a true root 
cause analysis, what actually happened. What I found were 
systemic problems in agency focus, in agency training, and in 
the way in which we deployed our equipment.
    So the first thing we did, we did a retraining of the 
entire workforce. That took 2 months. It was a rolling stand-
down 8 hours at a time, every single employee, including 
myself. I made all my senior leaders go through it as well. We 
called that Mission Essentials. We have followed up with a 
quarterly version of Mission Essentials. We now focus on 
various aspects of the checkpoint. We have dramatically 
increased our covert testing, internal covert testing, and we 
do immediate feedback into that.
    We provide--I work from--as I say, I work from the positive 
side of the equation. We provide rewards for those people who 
perform well, and then we turn those people into trainers for 
the next round of folks. We do immediate feedback, and we do 
that consistently.
    I get daily measures of performance, workforce readiness, 
workforce performance, and workforce accountability. We've 
change that. It's no longer based upon how long the lines are 
that you're working. That's a separate issue, and we deal with 
that at the management level. But for the frontline workforce, 
I want them to know that I want them to focus on their mission, 
and I will support them in doing so and will provide them the 
best possible training.
    We also train them on the equipment, how it operates, and 
we gave them hands-on understanding of what the limitations 
were. There's a more fuller answer for you, which I'll provide. 
Thank you, sir.
    Mrs. Maloney. Thank you.
    Chairman Chaffetz. Thank you. I will now recognize the 
gentleman from Tennessee, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    Admiral Neffenger, can you tell me how many TSA employees 
make $100,000 or more a year?
    Mr. Neffenger. I'll have to get the number for you for the 
record, sir. I don't know that off the top of my head.
    Mr. Duncan. Can you make a rough guess?
    Mr. Neffenger. I can make a rough guess, maybe--I don't 
really know, sir. I'll have to get that for the record for you.
    Mr. Duncan. All right. Well, let me ask you this. Do you 
know how many TSA employees got bonuses in the past year?
    Mr. Neffenger. There were--as I said, I've restricted the 
number of bonuses that we do. I'll get you the exact number. It 
was a significantly smaller number, and it's based upon 
performance. It wasn't based upon special act awards.
    Mr. Duncan. Can you tell me, have you personally fired any 
TSA employees for misconduct or rudeness or incompetence since 
you have been in office?
    Mr. Neffenger. There have been a number of people who have 
been fired from the agency at all levels of the past year. I 
came in and one of my first tasks was to determine what my 
agency looked like. I hold my leaders, as I said, to high 
standards, and I have demanded a lot of them. I have been--I'm 
confident in my current leadership team. I'm certainly 
confident in the people I've brought in to help lead that team. 
And today, I've been satisfied with their performance, although 
we have a long way to go.
    Mr. Duncan. And you heard Mr. Mica say that you are 
spending almost as much on administration as on actual 
screening. What is your response to that? Do you think that 
is--is that accurate?
    Mr. Neffenger. Well, I agree that any leader needs to look 
hard at the way in which his resources are being spent. I have 
done so. As I mentioned, I've done a systematic review of our 
entire agency and the management practices of this agency. 
We've taken a hard look at the budget, and in fact, I've moved 
a lot of resources around and I've been working with my--the 
appropriators and other--and my oversight committees to ensure 
they understand where those savings can be found. I think 
there's more savings to be found in my budget. Some of that 
administrative oversight is required to manage the contracts 
that TSA has, but I think that there's always room for 
examination of that, and I intend to do so.
    Mr. Duncan. Were you surprised when the inspector general 
mentioned the 18,000 complaints and 104 criminal convictions?
    Mr. Neffenger. I think that was across the DHS enterprise, 
not all TSA. We--it's--we're a subset of that number. I'm 
always dismayed by misconduct in an agency. We're a very large 
agency of about 60,000 people. It doesn't surprise me that we 
occasionally have people who don't act well. I'm concerned 
about the--its effect on ground. I'm mostly concerned about how 
you deal with it when you discover it, and I've committed to 
the inspector general that I will work very closely with him on 
understanding what the nature of those allegations and 
misconduct are.
    Mr. Duncan. I have served on the Aviation Subcommittee ever 
since I have been in Congress. I chaired it for 6 years, and I 
can tell you that you have well over twice as many screeners 
now as when it was privatized, and yet there are more 
complaints and longer lines now than when it was privatized. Do 
you have any explanation of that?
    Mr. Neffenger. Well, I think there's a couple factors 
there. One, there are significantly more people moving 
through--travelers now than there were ----
    Mr. Duncan. Well, not that many more percentagewise.
    Mr. Neffenger. Yes, sir, actually ----
    Mr. Duncan. There has been an increase but I can tell you 
there has not been a--there has been a big increase but not a 
2-1/2 times increase over when it was privatized. I can assure 
you of that.
    Mr. Neffenger. Well, we'll get you the exact number, but I 
think you would be surprised at how much of a volume we're 
seeing. And there's a lot more to worry about at a checkpoint 
than we ever had before. There's a lot more threats to the 
system. This is one of the most dynamic threat environments 
I've ever seen. So the nature of passenger screening is much 
more complex than it was 15 years ago prior to 9/11.
    Mr. Duncan. Have you reviewed the testimony of the 
witnesses that we had in here a few days ago and particularly 
the testimony by the one administrator that you spent $12 
million on a re-staffing of a floor that should have cost $3 
million at the most?
    Mr. Neffenger. I have reviewed the testimony, and as I 
mentioned, I've put significant controls over expenditures, 
over costs associated with those expenditures at all levels of 
the organization.
    Mr. Duncan. Now, I also heard that there were just about as 
many contractors as numbers of employees, and yet I have read 
and heard that many small businesses feel they are having 
trouble getting meetings set up or getting phone calls 
returned. Do you have or would you be willing to set up a small 
business ombudsman or a small business outreach office to 
help--so many departments and agencies when they become so big, 
just the big giants are well-connected enough to get meetings 
and get phone calls returned. And I am wondering if you are 
doing something about that.
    Mr. Neffenger. Yes, sir. Actually, thank you for that 
question. I have good news to report on that front. That's one 
of my concerns, too, coming in. My time in the Coast Guard I 
spent a fair amount of time on the acquisition side of the 
house and we had great concerns about small business 
participation. So it's a particular interest of mine. We do 
have a small business outreach office, and what I'm pleased to 
report is that we met our small business participation targets 
last year for the first time ever, and we continue to do so.
    I don't think there's enough competition in the current 
marketplace, and I think that there's a great deal of 
entrepreneurial and creative ideas in the small business world.
    Mr. Duncan. All right. Thank you very much.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentlewoman from Illinois, Ms. 
Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Administrator Neffenger, you have talked about the idea 
that more and more people are traveling and that TSA needs more 
workers. I wanted to concentrate a little bit more on pre-
check. How many passengers are currently enrolled in pre-check?
    Mr. Neffenger. We're currently at about 2.4 million people 
enrolled in pre-check.
    Ms. Kelly. And what number do you think that can grow to?
    Mr. Neffenger. Well, we've done a lot of work with the U.S. 
Travel Association and other associations connected with the 
airline industry, and we think we can get the number to 25 
million by calendar year 2019.
    Ms. Kelly. And what are you doing to encourage passengers 
to join the program?
    Mr. Neffenger. Well, we've done a lot more to advertise the 
program. You need to continually advertise something for people 
to be aware of it, and I think in my opinion failure to do so 
over the past few years consistently has reduced its--the 
awareness of people for it. So there's two factors. One, you 
have to advertise it and it has to be available, and then you 
have to have places where people can sign up for it. And those 
were the two areas that I think that we needed to do a lot of 
work on.
    We've been working very closely with U.S. Travel 
Association, individual airlines, the airline associations, and 
the airport associations to increase their advertising. I'm 
pleased to report that all the major airlines are doing their 
own versions of advertising. Some of the major airlines have 
offered to the opportunity to exchange miles for pre-check.
    We've gone out to a number--to the U.S. Chamber of Commerce 
and to a number of the large corporations. Microsoft 
Corporation, for example, now buys pre-check for all of its 
travelers, for its frequent travelers. So those kinds of things 
are helping considerably.
    And our enrollment rate now is running about 165,000 per 
month, which is more than double what we saw this time last 
year. We think it needs to get a little higher, but between 
that and the other Trusted Traveler Programs of the government 
such as Global Entry and NEXUS and SENTRI, we believe, and the 
associations agree with us, that we think we can get this up to 
25 million, which would dramatically change the way we can 
operate this system by calendar year 2019.
    Ms. Kelly. I typically fly in and out of O'Hare or 
sometimes Midway, and what my colleagues said about sometime 
the pre-check lines are actually longer than the regular lines, 
but the other thing is all of the carry-on luggage because of 
what the airlines charge, people are carrying more and more 
luggage on and stuffing more and more things in the luggage. 
And according to the New York Times, the big four airlines--
American, Southwest, Delta, and United--made $22 billion in 
profit from their charges. And I wanted to know--that is one of 
the sources of growing profits in the airline. And what portion 
of that from the airlines goes toward paying any airport 
security? Do they contribute in any way?
    Mr. Neffenger. I think the--currently, the airlines do not 
make a direct contribution to airline security. There's a 
passenger security fee that's charged on every ticket. It's 
capped on a round-trip.
    The--we do--we are seeing more baggage come through the 
checkpoint. I will say that the airlines now are being very 
diligent about enforcing the one-plus-one rule, and that's 
helped considerably. We're also experimenting in a number of 
the large airports with what we call travel-light lane, which 
gives those individuals who are carrying--who have just, you 
know, a simple carry on like a briefcase or a purse or 
something the opportunity to have a dedicated lane which allows 
us to move significantly more people through. It's the carry-on 
baggage that is one of the major slowdown points in the 
checkpoint.
    Ms. Kelly. And I wonder if we should do more calling on the 
airlines to help address the consequences of their business 
decisions on the TSA screening process because the more they 
charge, the less people are going to check their bags. I think 
American is $35 for a piece of luggage. What do you think about 
that?
    Mr. Neffenger. Well, it's the decision of the airlines to 
make those fees. I can talk about the impact of people carrying 
a lot of baggage through the checkpoint. I will say that I 
think airlines are aware of this. I've had a number of 
conversations with the CEOs of each of the major airlines. I 
understand why they made that business decision. I tell them 
what the impact can be upon us, and they've committed to 
working with us to ensure that they find ways to reduce that 
stress at the checkpoint.
    Ms. Kelly. And it's something they should look at because 
if everyone carries luggage on, that slows up people getting on 
the airplane and the on-time record and on and on and on so --
--
    Mr. Neffenger. That's right.
    Ms. Kelly. I yield back. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. I will now recognize the 
gentleman from Arizona, Mr. Gosar, for 5 minutes.
    Mr. Gosar. Thank you, Chairman.
    Mr. Neffenger, TSA employees report that directed 
reassignments have been used improperly to force out disfavored 
employees. Do you believe this is an ongoing practice at TSA?
    Mr. Neffenger. I discontinued that practice explicitly, and 
in fact have put strong controls on it. I will say that I think 
an agency--an operating agency needs to be able to move people 
periodically to places where their skills are needed or for 
exigent circumstances, but you need strong controls over that. 
It needs to be done in an open and transparent way, and it 
needs to be done in a way that is not used for retribution or 
punitive measures. But I've stopped that.
    Mr. Gosar. Well, I am glad you went that way because I 
would like to illustrate Mr. Brainard, who testified before 
this committee, that he was issued a directed reassignment from 
Iowa to Maine in 2014 with no apparent need or justification 
even though the move cost him significant financial hardship. 
His replacement and the person he was replacing were issued 
similar reassignments. In your opinion, was this an appropriate 
use of directed assignment, and if so, what is your 
justification?
    Mr. Neffenger. If I may, it was not an appropriate use of 
directed reassignments, and that's why I changed the policy.
    Mr. Gosar. So now, Mr. Brainard has also testified that he 
had an excellent performance evaluation. He was reassigned to a 
smaller and less complex airport. The person he replaced did 
not want to leave, and the person reassigned to replace him 
reassigned because accepting their reassignment would cause him 
hardship. Can you further explain the decision to move forward 
with this reassignment?
    Mr. Neffenger. Again, that happened before I arrived as the 
administrator.
    Mr. Gosar. Oh, it may have happened before, but, I mean, 
you are responsible, are you not, sir?
    Mr. Neffenger. Well, I'm responsible now, and as I said 
before, I am not conducting directed reassignments in that 
manner. If I have to--in fact, I have not directly reassigned 
anyone under my leadership.
    Mr. Gosar. Now, Andrew Rhoades was issued a directed 
reassignment in February of 2015, which was stayed by the 
Office of Special Counsel due to concerns of retaliation for 
protected whistleblower activity and ultimately rescinded by 
the TSA. Can you explain how Mr. Rhoades' reassignment was 
approved?
    Mr. Neffenger. Again, I would defer to the person who made 
that decision. I don't allow the policy under my watch, and 
we're supporting Mr. Rhoades in his complaint, which stands 
before the Office of Special Counsel right now.
    Mr. Gosar. Now, part of the justification for Mr. Rhoades' 
reassignment was to sever past loyalties due to suspicions he 
was a source for the media, which he denies. Do you consider 
this an appropriate justification?
    Mr. Neffenger. Well, again, that matter is being 
investigated right now by the Office of Special Counsel. If 
they find that to be true, then of course it wasn't 
appropriate.
    Mr. Gosar. So was Mr. Rhoades' directed reassignment 
approved by the Executive Resources Council?
    Mr. Neffenger. I believe it was brought before the 
Executive Resources Council under its then-mandate and then 
recommended to senior leadership beyond that.
    Mr. Gosar. Now, have you disciplined anybody at TSA for 
their role in this reassignment?
    Mr. Neffenger. Again, I'm waiting for the results of the 
Office of Special Counsel investigation. Depending upon what 
they find, it may point to appropriate discipline.
    Mr. Gosar. I mean, if there is a--you know, and in many 
cases with law enforcement, people are put on administrative 
leaves. Has anybody been put on administrative leave or 
anything like that?
    Mr. Neffenger. I've not placed anyone on administrative 
leave.
    Mr. Gosar. Now, do you stand by the validity of these 
reassignments or do you have any reason to believe that they 
were improper?
    Mr. Neffenger. With respect to the ones you're talking 
about ----
    Mr. Gosar. Yes.
    Mr. Neffenger.--again, I'm going to--I will await the 
Office of Special Counsel's review. I think it's important that 
we look for an independent review of that to determine whether 
or not there was improper use there. I will tell you that I 
don't think the manner in which we were doing directed 
reassignments prior to my arrival was justifiable. And even if 
it was appropriate, it wasn't done in a way that was open, 
transparent, fair, and otherwise controlled, which is why I 
changed it and we put significant controls on that process now.
    Mr. Gosar. And do you--on updates on reassignments, are 
they periodic or are they a daily basis? How are they done in 
your office?
    Mr. Neffenger. Oh, I get a report on those. I will tell you 
I've not done any directed reassignments, so right now, the 
update is that we aren't doing that, and I've created a process 
by which someone can recommend a reassignment, someone can 
request a reassignment, and then it goes through a series of 
checks and reviews. That includes the Office of Human Capital, 
the chief financial officer, the Executive Resources Council, 
and ultimately comes to the office of the administrator for a 
decision.
    Mr. Gosar. Well, I thank you. I am just running out of time 
so I will yield back. Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the ranking member, Mr. Cummings, from 
Maryland.
    Mr. Cummings. Admiral, I want to get down to the meat of 
what happened the other day when the whistleblowers came in. 
There was a theme running throughout their testimony, and they 
were very forthright, really good people. And they came to us 
begging almost for fairness. But one of the things that they 
said was that there are some leadership folk and they said it 
is not a lot of them that try to undermine the things that you 
are trying to bring about. And they felt very strongly that if 
these folks were not there, things would run a lot smoother.
    And so I just want to ask you, one of them said this, 
``this workforce is waiting out Mr. Neffenger because they 
think the elections are coming.'' Other whistleblowers 
expressed similar concerns. And, Administrator, have you heard 
this type of concern? And I hear that you are doing a great 
job, but that the problem elements at TSA are just waiting you 
out?
    And how do you put in systems that go beyond your tenure? 
Because I know you are used to doing that. You did it with 
Deepwater Horizon in the Coast Guard. You made sure that we had 
procurement officers that were trained properly. You set up a 
mechanism by which there was an inside-the-Coast-Guard training 
apparatus, and now they are doing fine. So how do you do that 
here and keep in mind what they said? They weren't so much 
complaining about you. They were complaining about some folks 
under you. So how do you deal with that? And do you have any 
idea who these whistleblowers were talking about?
    Mr. Neffenger. I don't know who they were directly 
referring to, Mr. Cummings, but let me tell you how I approach 
leadership at this organization. The first thing you have to do 
is set very clear standards, which I have done since I've been 
there, and very clear expectations and define a vision and a 
mission for where you're going. And it's directly related to 
getting our security mission done. And then I hold people 
accountable for reporting back to me.
    So I will tell you this. I have--I sat down with each of my 
leaders, the people who report directly to me at headquarters 
and who are responsible for--collectively for the performance 
of TSA. And I looked each one of them eye to eye, and I've done 
this repeatedly and I do this weekly, and I do this sometimes 
daily. And I've said this is what I expect of you. If you fail 
to perform, then I will hold you accountable. And I hold them 
accountable by requiring them to report back to me with very 
specific measures of performance.
    I will tell you to date--and I've driven them very hard. I 
know that because I know how hard I--because I know how hard 
they're--I'm working and I know how long they're there. And if 
I'm there at eight o'clock at night and I call somebody, 
they're there at eight o'clock at night, and then we do that 
until we get it done.
    So what I'm seeing is a leadership team that if driven and 
pointed in the right direction is doing what I'm asking them to 
do.
    Now, how do you ensure that that stays there in the event, 
you know, I'm not here after the elections? First of all, I 
want to--you inspire the workforce to the mission that they 
first took the oath of office for. You can remind people of the 
oath of office they took, and I remind everyone that this is a 
workforce that committed themselves to one of the most 
challenging missions in the country. And then you have to build 
the institutional controls and you put them into policy and 
then you get that policy stamped by the Department of Homeland 
Security.
    And you turn to people like the inspector general and you 
turn to people like the Secretary of Homeland Security, and you 
ask them to review your policies and then you put controls at 
the department level over this.
    And then you bring in leaders below you that are career 
employees that will survive you that are on the same page you 
are, which I've done. I have a new deputy administrator who 
came in from outside the agency, and she has a stellar 
reputation in the Federal Government.
    And then you bring in a--I brought in the chief of 
operations, again, a stellar operator who is a man of superb 
integrity and who then is responsible for encouraging that 
going forward.
    I will provide for you a list of those kinds of actions 
we're taking, but I think the way you ensure that it survives 
is that you don't let it be the decision of one individual 
anymore, which I don't.
    Mr. Cummings. Well, let me ask you this. One of the 
things--and I think that--first of all, I think every member of 
this committee and I know for a fact the chairman feels this 
way and certainly--because we have talked about it a lot. If 
there is retaliation, we have a major problem with that, and we 
will do everything in our power to protect whistleblowers.
    And I guess my question now is when I heard about this 
reassignment--and I know you are not doing it anymore--I mean, 
some of that stuff really upset me because basically what they 
were doing was it sounded like intentionally tearing up 
families, dividing them, and I mean really putting some 
hardship on people, which was, I mean, unbearable. And they 
were spending--I think one case spend $100,000 to do a 
reassignment that didn't even make sense except to retaliate.
    I want to know what your position is with regard to 
retaliation, how you deal with that. And we want to be assured 
that if there are people who are doing that--and I am telling 
you, I think you will get--not I think, I know you will get 
every member of our committee backing you up, but we want to 
know what your position is with regard to that, and have you 
found any of that so far, I mean, yourself. I know that you may 
have heard some things. I don't--but go ahead.
    Mr. Neffenger. Well, I don't tolerate that. That's--it's 
illegal, it's unethical, and it fits in all the categories of 
the kind of people you don't want any organization. The people 
who were doing the--most of those directed reassignments are no 
longer with the agency. They left before my arrival. I'm very 
interested in the results of the Office of Special Counsel 
investigation into the existing cases with the individuals who 
appeared before you. Depending upon those findings, I will take 
immediate action against that.
    It will not be tolerated. I don't tolerate it. It's why I 
stopped the practice. I don't know how extensive it really was 
because we know the people that have come forward. But I can 
tell you that it doesn't happen under--and I made that very 
clear to everyone.
    I also directly support the rights of individuals to come 
forward. That's valuable information you get from people who 
have the courage to step forward and tell you what they think 
is wrong with the organization.
    Mr. Cummings. And I am going to finish with this, Mr. 
Chairman.
    So you are saying that if there are people watching this at 
TSA who feel that they are being wrongfully retaliated against 
or some action taken against them that is illegal and improper, 
you are saying you have an open door?
    Mr. Neffenger. They can come directly to me, exactly, and I 
will then, in fact, turn directly to Inspector General Roth and 
I will ask his assistance in investigating.
    Mr. Cummings. Thank you very much, Mr. Chairman. Thank you.
    Mr. Neffenger. Thank you.
    Chairman Chaffetz. I now recognize the gentleman from South 
Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman. I will be brief, and 
then I will yield the remainder of my time to the gentleman 
from Florida.
    Mr. Chairman, I think we are probably all prisoners to a 
certain extent to our own personal experience, so while I am 
open and interested of the experiences and expectations of 
others, I have never had a problem in any of the airports I 
have ever traveled to. I use Greenville-Spartanburg, I use 
Charlotte, I use DCA. The folks are professional.
    My friend from Florida mentioned that there may be some 
Members of Congress and perhaps other people who consider 
themselves to be dignitaries who either expect or accept 
preferential treatment. The Members of Congress that I travel 
with don't expect it, and they wouldn't accept it if it were 
offered to them. And a Member of Congress has a little bit of 
obligation herself or himself to say no, I am going to stay in 
the line like everybody else.
    So I am quite certain that your department can do better. I 
am quite certain that you have a plan to do better. I am also 
quite certain Congress can do better. So I am going to focus on 
fixing us, and I trust that you have a plan to fix TSA. And my 
experience with them is you have a really hard job with the 
zero margin for error. That is not much margin.
    So with that, I would yield to the gentleman from Florida.
    Mr. Mica. I thank the gentleman.
    Actually, I want to take a minute and compliment Mr. 
Cummings. Sometimes he and I disagree, rarely, but his line of 
questioning--Mr. Neffenger, I am not here just to bust your 
chops, but his line of questioning was from the other side of 
the aisle, and what we heard raised great questions, and it was 
documented by staff the amounts of money that were used to pay 
to transfer people in retribution.
    And then the other thing, too, is sometimes I think--I was 
telling the chairman I think you are a good guy. I think you 
were a good guy to be sent in to clean up the mess, but 
sometimes the leader is fed mushrooms and kept in the dark. I 
will put that as politely as we can. And Mr. Cummings described 
to you what we heard is going on, that you are being fed this 
information by these people who are protecting their rear ends. 
I am trying to put this in terms that can be transmitted on C-
SPAN for the family community. But, again, this is our concern.
    I helped create TSA. I will never forget Mr. Mineta and I 
went out and we--I think it was like we had a goal of 20 or 30 
minutes from curb to the gate. That was our goal. That was when 
it was under the Transportation Committee. And we actually went 
out and did a thing. And it can be done. We don't have to 
hassle the 99 percent of the people. We are supposed to be 
looking for the ones that are getting through.
    And, again, you have an attrition rate of an average of 
about 10 percent, right, for screeners, average across the 
board? If you can't tell me now ----
    Mr. Neffenger. No, no, the average ----
    Mr. Mica.--I don't know what the attrition ----
    Mr. Neffenger.--of--it's higher in the part-time workforce.
    Mr. Mica. Okay. You have 4,500 full-time--or 45,000 as your 
cap. You have 4,500 vacancies at any time. Thirty percent of 
them are dropping out after you train them and 38 percent of 
the non-TSO. That is what we have from you. So, again, it is a 
tub that the water is draining and we are not going to get--
that is why it is very hard to administer all those people.
    And staffing to traffic, they can't staff to traffic. And 
you heard, one of your defenders, Mrs. Maloney, sometimes the 
pre-check line was longer than the others because no one 
adjusts. It is not a thinking organization. And I don't know 
how you get it. I am an advocate of private screening under 
Federal supervision, which hopefully could make better 
decisions.
    But I also want to know the total number of bonuses that 
were paid in 2015, 2014. I want to know how much--that is for 
management personnel and your highest level. Then, I want to 
know the maximum and minimum amount for the screeners. These 
guys do work hard, and the staff is telling me their max is in 
the range of $300. And this guy is getting $80,000, and we are 
screwing the guy that is doing the work and the job? If we paid 
them better, maybe we could retain them. I know some of the 
private screening companies pay more than the TSA schedule. 
They have to pay the minimum. It is not done on the cheap. You 
are aware of that, aren't you? Do you have that flexibility to 
pay more?
    Mr. Neffenger. I have some flexibility. I don't have much 
flexibility.
    Mr. Mica. Maybe you need more. Thank you. And I yield back.
    Chairman Chaffetz. Thank you. I would now recognize ----
    Mr. Connolly. Would my friend from Florida just yield for 
one second?
    Chairman Chaffetz. The gentleman's time has expired.
    Mr. Mica. For Mr. Connolly, I would ----
    Mr. Connolly. I just want to ----
    Mr. Mica.--yield any time--I would do anything Mr. Connolly 
----
    Mr. Connolly. The C-SPAN word for screwing is euchring ----
    Mr. Mica. Thank you.
    Mr. Connolly.--for the record.
    Chairman Chaffetz. I now recognize the gentleman from 
Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. And thank you, Admiral. 
Thank you, Inspector General. Good to see you again.
    You realize this is an equal opportunity committee, so when 
we criticize you today about having long lines and taking too 
long to screen people, next week if there is a breach, we will 
haul you appear again and lambaste you for, you know, not be 
more thorough. So we have that flexibility up here and you do 
not.
    But I think, based on what I have seen and, you know, I 
have been a critic at times, based on what I have seen, 
Admiral, the work that you are doing and, Inspector General, 
you continue to do, I think we are going in the right 
direction, but we have got a lot of work to do.
    The question we had at a previous hearing was regarding--
let me ask you up front. We seem to rely a lot on the 
whistleblower, and I am wondering in the Aviation and 
Transportation Security Act, it says that employees may be 
hired and fired, you know, basically on the will of the 
management at TSA, any other law in existence notwithstanding.
    So, as I understand that, they do not have the protection 
under title 7 of the Civil Rights Act. They do not have 
protection under antidiscrimination law by the language in the 
law that says notwithstanding any other law to the contrary 
they could be fired. And do you want to speak to that, Admiral?
    Mr. Neffenger. Yes, sir. They do have protection under 
civil rights and under the Equal Opportunity Act. In fact, 
we've explicitly put that into the way in which we govern the 
agency. So they have all the due process rights and protections 
are ----
    Mr. Lynch. Have you adopted that? Because you just had a 
case in court where they threw the case out because they said 
employees were not covered by that.
    Mr. Neffenger. Well, I'll have to look at that case, but I 
believe they are fully covered, and it's one of the questions I 
asked.
    Mr. Lynch. They are not covered by the statute. I am not 
sure how ----
    Mr. Neffenger. Given the unique nature of the statute, no, 
but it's been adopted by--it was adopted by previous 
administrators.
    Mr. Lynch. Okay. Okay. Okay. I will take your word for 
that. That is helpful because if they don't have statutory 
protections, obviously they are going to have to rely on the 
whistleblower protection or the 40 cases that Mr. Roth is able 
to take up each year. And that is not nearly the protections 
that they would need, right?
    Let me go back. We had a case a while ago. I think there 
were like 70 or 71 employees who were on that no-fly list, 
terrorist watch list that were actually working at some of our 
airports. And you came in and you changed that system. And I 
want to ask you, those employees, were they removed?
    And I realize--let me fully explain. The reason that was 
given was that TSA was not privy to those lists on which those 
employees who were on the terrorist watch list or the no-fly 
list were allowed to be employed in airports in secure areas. 
But when you went in, I understand it from our last 
conversation, we cleaned that up. And I just want to know how 
it was cleaned up. Were they fired or what happened there?
    Mr. Neffenger. Well, just to clarify, they actually weren't 
on the no-fly or the watch list. They were in what was called 
the TIDE database, the Terrorist Information Datamart 
Environment. And this is information that may or may not 
indicate a direct association with terrorism. So one of the 
first things we did was I wanted the FBI's read on every one of 
these individuals. And the answer back was that none of them 
were--met sufficient information to actually directly call them 
a terrorist or an associate of a terrorist ----
    Mr. Lynch. But ----
    Mr. Neffenger. So that said, we looked back at it. Many of 
them no longer hold their credentials. Two of them had their 
credentials removed, and the remainder have actually been 
scrubbed out of the database on the advice of the FBI. But it 
was very valuable to get--what it did for us, though, is it 
allowed us then to get automated access to the categories of 
that separate database, which then ultimately could feed into 
the terrorist watch list or the terrorist screening database.
    And now we do a full automated review of every single 
credential holder against that database. And if anybody pops up 
in any category ----
    Mr. Lynch. Okay.
    Mr. Neffenger.--it allows you to take a harder look at 
them, which we do, and then we go back to the intelligence 
community and to the FBI and we do a scrub on those 
individuals.
    Mr. Lynch. But you have to admit this is a higher level of 
sensibility here allowing these folks to actually work inside 
secure areas ----
    Mr. Neffenger. Yes, sir, and that was exactly the question 
that I had about that ----
    Mr. Lynch. Yes.
    Mr. Neffenger.--which is why--and I've been working very 
closely with Director Comey and the National Counterterrorism 
Center to ----
    Mr. Lynch. Right.
    Mr. Neffenger.--correct things through that.
    Mr. Lynch. Mr. Roth, you did a great job on the screening 
tests at the big airports, and, you know, we had a very high 
failure rate the last time you did that test. And I am not sure 
if enough time has gone by to allow Admiral Neffenger to sort 
of adopt a new protocol among the screeners, and has that 
happened yet? Have you done any new test to sort of take a 
measurement of how we are doing?
    Mr. Roth. Sure. What we have done is two things. One is the 
natural follow-up that we would do in any audit. So, for 
example, with regard to the penetration testing, we have 
reviewed TSA's 22-point plan to increase security at the 
checkpoint. Additionally, we are planning more covert testing 
the summer of a similar scale that we did last summer so we'll 
be able to tell exactly how we're doing.
    Mr. Lynch. Great. Great. Thank you, Mr. Chairman, for your 
indulgence. I yield back.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from North Carolina, Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    I have been amazed to know how much money has actually been 
spent in some of these previous relocations, reassignments 
nearing $200,000 per relocation. Have you directed any of these 
reassignments during your tenure?
    Mr. Neffenger. I have not, no, sir.
    Mr. Walker. And Mr. Brainard reported that the relocation 
expenses for his reassignment to Maine exceeded $100,000. Is 
that true as far as you know?
    Mr. Neffenger. That's my understanding, yes, sir.
    Mr. Walker. Okay. And would you agree that that is an 
illegitimate use of taxpayers' dollars?
    Mr. Neffenger. It's in excess of what should have been 
spent. In fact, I've capped any relocation reassignment costs.
    Mr. Walker. How are involuntary relocation decisions 
approved now?
    Mr. Neffenger. Now, the process is, first and foremost, it 
has to be looked at by the Office of Human Capital. I want them 
to see is there a need for the relocation. Second, has the 
individual that you're looking--thinking about relocating, is 
that something the individual desires, wants, what's the skill 
set that you need, why would you do that.
    Second, I have to have a CFO--the chief financial officer 
has to sign off on the ability to actually pay for it, and it 
has to be within a reasonable cost, and we set limits on those 
reasonable costs.
    And then finally, after it gets reviewed by my executive 
counsel, we make the final decision in the office of the 
administrator.
    Mr. Walker. Administrator Neffenger, it sounds like you are 
trying to develop or implement a plan for the future, which is 
part of a cleaning up from some of the things in the past. 
Probably the biggest thing that concerns me is the issue with 
Mr. Hoggan. Do you believe that Mr. Hoggan's performance 
bonuses of $90,000 is justified for the taxpayer?
    Mr. Neffenger. I don't think that level of bonuses 
justified, period.
    Mr. Walker. Okay. Well, I am glad to hear that. As the 
leader of the OSO, did Mr. Hoggan have a key role in directed 
reassignments?
    Mr. Neffenger. He had a role in directed reassignments. It 
wasn't the only role in directed reassignments. Those came out 
of a different office.
    Mr. Walker. When you said a role, can you expound just for 
a moment for me?
    Mr. Neffenger. Well, I mean moving--the Office of Security 
Operations ultimately has to get the people moved from one 
location to the other and perhaps has to carry out the order to 
make the movement happen.
    Mr. Walker. Is it fair to say that he had a key factor in 
this?
    Mr. Neffenger. I think he had a role in this, yes.
    Mr. Walker. Okay. All right. In looking at his situation 
and his involvement, I am sure you have considered replacing 
Mr. Hoggan as the director of OSO given his responsibility for 
screening failures, rolling directed reassignments, and his 
questionable bonus payments. Is that fair to say?
    Mr. Neffenger. I'd like to back up a little bit, Mr. 
Walker, and talk about--I-- what I found ----
    Mr. Walker. Well, I would like for you--I appreciate it, 
but I want you to answer the question. You are welcome to 
expound, but I asked a direct question there.
    Mr. Neffenger. My first task was to see how--what my 
leadership team was able to do. And everything I've asked of 
Mr. Hoggan since I've been here, he has done that. I look all 
of my leaders and determine whether or not they're qualified 
for the job ----
    Mr. Walker. Sure, I appreciate it, but there have been some 
past violations. Have you had discussions as a part of groups 
saying listen, this is a decision that we may need to make as 
far as removing Hoggan for these past transgressions?
    Mr. Neffenger. Well, the inspector general took a look at 
the situation with respect to that. I think that there were 
people responsible for that who are no longer within the 
agency.
    Mr. Walker. I'm not asking--with all due respect, and I 
know you are doing a great job. And for Inspector General Roth, 
I am asking about you. What has your role been in Mr. Hoggan's 
previous indiscretions here when it comes to some of the 
spending expenditures? Have you had discussions or is there any 
plan to remove him or put him on probation? What is the 
decision here?
    Mr. Neffenger. I do not currently have a plan to remove Mr. 
Hoggan. He has performed to my expectations since I've been 
there, and he--and I have not seen any indiscretions on his 
part in the time that I've been in TSA.
    Mr. Walker. So even though we acknowledge there has been 
some, do we just kind of put a blind ----
    Mr. Neffenger. Well, I don't know--I don't acknowledge that 
he had indiscretions. I think he carried out some orders, and 
those orders resulted in people being reassigned, sometimes for 
good reason, sometimes maybe for ill-considered reason ----
    Mr. Walker. But even carrying out orders, it reminds me of 
the movie A Few Good Men. These young marines were still in the 
fictitious movie therefore carrying out the code red. If he is 
following orders but still doing something wrong or going after 
people, there is still some accountability. Is that not fair?
    Mr. Neffenger. Well, and I think that those--some of those 
issues have then investigated, and they were recommended. We 
have filled out those recommendations as necessary from the 
inspector general. I have not seen any direct misconduct on the 
part of Mr. Hoggan in the time that I've been there.
    Mr. Walker. No, and I appreciate that for the time that you 
have been there. Our concern or the facts that we have is 
before you arrived, and it was in the not-so-far distant past 
that there were some of these indiscretions as we have used 
going on.
    My time is expiring. I do hope that there will be some kind 
of looking into Mr. Hoggan as far as some of these things that 
went on, especially these involuntary relocations. Mr. Cummings 
talked about even potentially tearing some of the families 
apart because I do think there is some responsibility on his 
part even if he was carrying out orders.
    I have got 10 seconds left. I do want to compliment 
Inspector General Roth. Every hearing I go to you and your 
staff are properly prepared, and we appreciate it. Thank you 
very much.
    And with that, I yield back, Mr. Chairman.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from Virginia, Mr. Connelly, for 5 minutes.
    Mr. Connelly. Thank you very much. And welcome, both of 
you.
    Admiral Neffenger, let me start by saying I really 
appreciate the management reforms you have undertaken and the 
spirit with which you have taken them. This is a big 
enterprise, a difficult enterprise, a critical mission with a 
lot of unsatisfying aspects to the job. Very few human beings 
are going to make a 30-year career out of telling people to 
take off their belts and shoes, and yet it is critical to the 
mission, the security of the American people.
    And so it not easy keeping motivated to have a salary 
structure that makes sense, and I for one very much appreciate 
what you have done, and I hope you don't leave with the new 
administration. And as a matter of fact, if you do, I hope you 
will give Paul Wiedefeld a call at Metro and join his team 
because we need the kind of management reforms you have 
undertaken at TSA.
    One little plug that I always make, and I have seen in my 
own experience a big change, which I appreciate, in how we are 
treating the public, but we have still got work to do. But I 
have really been impressed at different airports I have gone to 
where--and I just think when you create a more hospitable, 
friendly climate that invites people's cooperation, you get it.
    And there is always a risk if you get a hostile public or a 
resentful public that something can go wrong. Why not go the 
former if you can? And I just thank you for that, and I hope 
you will keep that sense of that culture present. We are not 
dealing with cattle. We are dealing with people, and we need 
their cooperation and we want them to feel good about the 
experience as much as they can.
    And I think we do have a long-suffering public that gets it 
about the security mission and is willing to put up with a lot 
more than I would have guessed, but we should make it as easy 
as possible without compromising security, and I think that 
ought to be the ethos. And so I commend the two of you, and I 
thank you for the progress that has been achieved.
    Let me first ask, by having said all of that, I think there 
is a growing concern as a management challenge what is 
happening in terms of wait times. So, for example, 600 
passengers missed their flights in Charlotte, North Carolina, 
on Good Friday because of wait times that exceeded 3 hours. 
Now, Mrs. Maloney said she doesn't know anyone who complains. 
My guess is they were 600 people that day on Good Friday in 
Charlotte who did.
    It is one thing to understand I am going to be discommoded 
and inconvenienced to get through a security line to protect me 
and everybody else. It is quite another that the price of that 
is it is moving so sluggishly and glacially I am going to miss 
my flight.
    American Airlines says 7,000 of its customers missed 
flights in March alone, the month of March, due to long waits 
and security lines. Seattle and Atlanta have indicated they 
actually may seek authority to try to privatize passenger 
screening to expedite this process. Could you address that? 
Because I think we have to agree that is not acceptable. It may 
happen, but if that becomes routine, that just doesn't--now, we 
are going to get real public resistance.
    Mr. Neffenger. Yes, sir. Well, thanks for the question. 
The--we've seen huge increases in passenger volume. There's no 
doubt about that. And at peak times we're seeing more people 
moving through the system than we've ever seen before. Just to 
put it in perspective, 4 years ago a big day in this country 
was about 1.6 million passengers going through screening 
checkpoints. We're well above 2 million passengers daily right 
now. So that's just a--it's just a volume increase.
    And I do think we need to grow the staff slightly to get up 
to that, and we're working hard on that. In fact, we've been--
once we got our appropriation bill passed in December, we began 
accelerating hiring because, as you know, if you're going to 
reduce by another 1,600 or so people, we cut into that number 
well in advance of the fiscal year.
    So we are hiring and we're meeting our hiring quotas. I 
think the good news is is we have people who actually want to 
come to work for TSA. But it seems to me--and I know you know 
this is a good management principle--I think we have got to 
priority-set some metrics. Three hours is unacceptable.
    Mr. Neffenger. Well ----
    Mr. Connelly. So we ought to be setting for ourselves a 
time frame that is acceptable. We don't go beyond that. And 
whatever the staffing required, I mean, Mr. Mica correctly 
talked about staffing to traffic.
    Mr. Neffenger. That's ----
    Mr. Connelly. This is part of that.
    Mr. Neffenger. That's right. And we've been working very 
closely with the airlines, the airports to understand when 
those peak loads are coming through and to make sure our 
staffing meets that. I think we've improved significantly just 
in the past few weeks.
    I'm not aware of any wait times of the length that you're 
talking about right now, and I track them daily. And I look at 
passenger volume daily and I look out across all of the 
airports that ----
    Mr. Connelly. Well, you may want to check Good Friday in 
Charlotte ----
    Mr. Neffenger. I will do that.
    Mr. Connelly.--according to this report. One final question 
if the chair will indulge me, just a real quick one.
    Inspector General Roth, do we have an anonymous hotline 
within TSA that people can call when they feel something is 
untoward, sort of under the broader whistleblower category? 
But, I mean, you know, in my county there is a hotline you can 
call if you think someone is doing something untoward, and you 
are protected with anonymity and it is followed up by our 
inspector general.
    Mr. Roth. Yes, absolutely. We have a hotline that is 
manned, as well as a Web site so you can use either of those 
ways to complain or give us information that we will eventually 
----
    Mr. Connelly. And there is guaranteed follow-up?
    Mr. Roth. We will take a look at it. We get 18,000 
complaints a year. We can't guarantee that every single one of 
those complaints will be thoroughly investigated, but we 
certainly look at them and evaluate them.
    Mr. Connelly. Very fine. Thank you, Mr. Chairman.
    Mr. Walker. Thank you, Mr. Connelly.
    The chair now recognizes the gentleman from Georgia, Mr. 
Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    I think we have got a very great facility for the Federal 
Law Enforcement Training Center. I think the TSA frankly is not 
utilizing it to the full potential, certainly not to the 
potential that would be helpful. But how long on an average 
does a new hire have to wait before they begin training at the 
TSA Academy?
    Mr. Neffenger. Well, I've got good news to report on that. 
We're--so, as you know, that academy stood up for the first 
time ever on January 1 of this year, so this is new for us. And 
we are pushing now eight concurrent classes, about 200 officers 
a week. We--it takes about 4 months to on-board somebody new, 
and during--and we typically bring them on board and they have 
to get their security background checks and the like, and then 
we get them right into a training class shortly after that. So 
we're actually seeing the ability to move people right in, and 
we're still ----
    Mr. Hice. So 4 months is the average wait?
    Mr. Neffenger. It's on average 4 to 5 months, but that--but 
during that time you're going through the background checks and 
the like to determine if they're ----
    Mr. Hice. All right. How ----
    Mr. Neffenger.--worth hiring.
    Mr. Hice. What percentage of TSO go through FLETC?
    Mr. Neffenger. Well, now, it's--we're doing ----
    Mr. Hice. Ten percent?
    Mr. Neffenger. No, no. Now, we're putting 100 percent of 
our new hires through FLETC. It used to be the case that we 
trained, you know, at various places on the job around the 
country. We are going to make a couple of exceptions because of 
the need to get some more officers out in front of the summer 
travel season, so we're doing--we've--we're taking the FLETC 
curriculum and we're doing it locally in a couple of key 
locations. But we are ----
    Mr. Hice. Is that local training as effective as the FLETC 
training?
    Mr. Neffenger. We're using the same FLETC ----
    Mr. Hice. I know the curriculum, but is it as effective --
--
    Mr. Neffenger. Well, from my opinion it's not ideal.
    Mr. Hice. Okay.
    Mr. Neffenger. I would like to do everything--if the--we're 
still--we're building out capacity and FLETC has been working 
with us to allow for that capacity ----
    Mr. Hice. How many airports have requested the 
authorization to utilize local training?
    Mr. Neffenger. I think I've got to airports right now that 
have asked the authorization.
    Mr. Hice. Two? Okay. Have any been denied?
    Mr. Neffenger. What we've said is that we will do it on an 
as-needed basis. We aren't currently doing any local training 
classes because we're able to--we've been working with FLETC to 
increase the class offerings there. So ----
    Mr. Hice. Is there a clear policy to determine the as-need 
basis?
    Mr. Neffenger. There is a clear policy, yes, sir.
    Mr. Hice. Okay. Could you submit that to us ----
    Mr. Neffenger. Yes, sir. I will do that.
    Mr. Hice.--and let us have a copy of that?
    In regard to the bonuses, I would like to go back and ask a 
couple of questions regarding Mr. Hoggan. You are aware that 
the $90,000 in bonuses were broken up in increments of $10,000 
each. Could you explain why the agency did it this way, why it 
was broken up that way?
    Mr. Neffenger. Well, as I understand it--and as you know, 
that was done under previous leadership, but as I understand 
it, it was because the maximum amount allowable on any given 
bonus was $10,000.
    Mr. Hice. Okay. So was this some sort of scheme to get 
him--well, could you explain smurfing?
    Mr. Neffenger. I'm sorry, say again?
    Mr. Hice. Smurfing.
    Mr. Neffenger. Smurfing? I am not familiar with the term.
    Mr. Hice. Okay. So if there is $90,000 broken up in $10,000 
increments, is that the type of thing that would need approval 
from DHS?
    Mr. Neffenger. It does now. I will tell you that there is 
nothing in my experience that finds that justifiable. It's why 
I stopped the--it doesn't matter if it didn't violate policy --
--
    Mr. Hice. All right. So why do you say that? Why is that 
not justifiable? What does not appear to be to you?
    Mr. Neffenger. It just looks--it just doesn't pass the 
front-page test for me.
    Mr. Hice. It looks like something is being hidden.
    Mr. Neffenger. I just don't like it. I don't think it's 
right, and I stopped that practice. And I make sure now that 
all of our bonuses have to be approved at the department level, 
and I severely restricted them within TSA.
    Mr. Hice. Mr. Roth, I would really like to hear your 
comments on all of this.
    Mr. Roth. As we looked at our report, I mean, it was 
clearly an attempt to circumvent the departmental regulations 
on approval, so ----
    Mr. Hice. Okay.
    Mr. Roth.--smurfing is breaking up specific financial 
transactions to something below the reporting requirement, 
which is what happened here.
    Mr. Hice. Right.
    Mr. Roth. The individual responsible for that, by the time 
that we did our investigation, was no longer employed at TSA, 
and the regulations that existed at the time were so loose that 
it was technically permissible even though clearly the intent 
was, I think, wrong.
    Mr. Hice. So the intent is to hide?
    Mr. Roth. Absolutely.
    Mr. Hice. Yes, absolutely, and that is what smurfing is, 
and I appreciate you bringing that.
    Is there anything currently preventing the agency--back to 
you, Admiral--from disguising these bonuses in forms of 
payments, be it relocation or any other method where it is 
really just a disguise for bonuses?
    Mr. Neffenger. Yes. I've expressly prohibited it, and I 
made that very clear in policy. I'm happy to provide that 
policy for the committee's record. And I require oversight from 
the Department before any bonus can be awarded to a senior 
executive.
    Mr. Hice. I would like to have that ----
    Mr. Neffenger. Yes.
    Mr. Hice.--policy submitted.
    Mr. Hice. So your testimony here is that there is no 
disguise taking place?
    Mr. Neffenger. Not under my leadership. And I've made clear 
that we put that directly into policy, and I made sure that 
even--that no single individual can approve a bonus award for a 
senior executive without oversight, and it has to be approved 
by the Department. Even I don't--I've not even given myself the 
authority to make the final approval. It goes through the 
Department for oversight.
    Mr. Hice. Okay. Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Missouri, Mr. Clay, 
for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman, and thank both of you 
for being here.
    You know, we all agree that security must be the top 
priority, and there is no disagreement about that.
    Mr. Roth, when you testified here in November, you were 
critical of certain programs that granted passengers access to 
expedited screening lanes when they had not undergone risk 
assessments. You also commended Administrator Neffenger. You 
said he ``deactivated certain risk assessment rules that 
granted expedited screening through pre-check lanes.'' Is that 
correct?
    Mr. Roth. Yes, sir.
    Mr. Clay. Okay. On March 24 the Bureau of Transportation 
Statistics issued a report that said ``U.S. airline and foreign 
airlines serving the U.S. carried an all-time high of 895.5 
million system-wide.'' So, Administrator Neffenger, passenger 
volumes have been increasing, but the number of screeners in 
the TSA workforce has dropped by nearly 6,000 over the past 4 
years. Is that right?
    Mr. Neffenger. Yes, sir.
    Mr. Clay. And why did this occur?
    Mr. Neffenger. I'm sure there were good reasons for people 
before me to reduce that. I think it was predicated on a 
prediction of higher numbers of people getting into expedited 
screening than we've seen. It's just a fact that we're smaller 
agency on the frontline workforce than we were before and that 
we had significantly more people moving through the system.
    Mr. Clay. And, you know, I heard my friend Mr. Gowdy from 
South Carolina talk about he doesn't encounter much trouble. I 
travel through St. Louis Lambert Field weekly. It seems to have 
a shortage of employees, especially for the pre-check line. 
Probably 90 percent of the time that line is closed, and each 
time, staff gives me the excuse that they don't have enough 
personnel, enough security officers to check people. So it is 
very frustrating to my constituents who have paid the extra fee 
for pre-check. Is there a shortage of staff for airports like 
Lambert?
    Mr. Neffenger. We--I think we have a shortage of staff 
across the system right now. We're moving people into the areas 
of greatest volume and greatest need. We are hiring back the 
people that have been slated to be attrited out this year, and 
we've--we're pushing about 200 new officers every week.
    So what I'm hoping to do is build back a sufficient staff 
to meet the peak staffing that we need. We currently cannot 
staff effectively across the system to the peak volume periods.
    Mr. Clay. So in your opinion was TSA screener workforce 
sized appropriately to handle increasing passenger volumes?
    Mr. Neffenger. Well, I think the budgets were predicated on 
what was predicted to be 2 percent volume growth. I think we 
use the Bureau of Transportation Statistics predictions, and 
you remember, these budgets were built a couple of years ago. 
The actual volume growth has been significantly higher than 
that, so in my opinion, we're not at the right size.
    That said, I appreciate all the great comments about our 
workforce because we have a really dedicated workforce, and 
they're doing a very challenging job out there and doing it 
quite well. I'd like to get them some more help.
    Mr. Clay. Well, okay. Then perhaps you can help me. I 
annually give a career fair in St. Louis. It is the largest one 
held. I would love to involve your local staff and coming out 
in looking at potential candidates, and I will follow up with 
you on that.
    Mr. Neffenger. Yes, sir. Thank you.
    Mr. Clay. On May 4 Homeland Security Secretary Jeh Johnson 
issued a statement responding to increased waiting times, and 
he said this: ``TSA is increasing the staffing of TSOs to help 
expedite the checkpoint process without sacrificing security.'' 
Mr. Neffenger, what is the size of the screener workforce TSA 
needs to handle projected passenger volumes while ensuring that 
only passengers who are subjected to risk assessments are sent 
through expedited screening procedures?
    Mr. Neffenger. Well, Congress just approved a reprogramming 
request, which will allow me to hire another 768 screeners--
screening officers this summer, and we'll get them out in the 
workforce, we hope, by the middle of June. That will 
significantly help us.
    We've also been working with the airlines and the airports, 
and they are taking on some of the non-security-related duties, 
which helps free up more of my officers to go on--directly on 
to the screening checkpoints. I think with the combination of 
those two and the use of our passenger screening K-9s should 
significantly alleviate some of the challenges that we're going 
to be facing over the summer.
    Mr. Clay. Thank you both for your responses.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman, and thank you, Admiral 
and Mr. Roth, for being here. I appreciate it very much.
    Admiral, let me ask you. Would you agree that having expert 
and standardized training for TSA screeners like we have at 
FLETC, the Federal Law Enforcement Training Center in Glencoe, 
Georgia, that that is very important to make sure that we have 
personnel that is fully prepared to keep our airports safe?
    Mr. Neffenger. Yes, sir, absolutely.
    Mr. Carter. I bring that up because the Federal Law 
Enforcement Training Center in Glencoe, I know you have been 
there ----
    Mr. Neffenger. Yes, sir.
    Mr. Carter.--and of course it is in my district. And I am 
very proud of that. I look at that as being one of the areas 
that we are getting right in the Federal Government. I mean, to 
go down there--and I want to invite my colleagues here on this 
committee particularly to visit because--and we will try to 
schedule a trip down there for everyone to see just what an 
outstanding job they are doing down there in the way of 
training.
    And I mention that because I want to make sure that we are 
not confusing these well-trained employees with the problem 
that we are having that I consider to be more in performance 
and more in management in particular. When you talk about 
having a shortage of employees, that is not because they are 
not well-trained. That is a management problem.
    Mr. Neffenger. Yes, sir.
    Mr. Carter. When you talk about employees not showing up on 
a holiday and having a shortage during the busiest travel time, 
that is a management problem. So I just want to make sure that 
we understand that there is a difference here, that they are 
being trained well.
    FLETC is a great facility. It is used by over 94 different 
agencies. So training is not the problem. The problem here is a 
management problem and a performance problem.
    Mr. Neffenger. Well, thank you for that. And thank you for 
recognizing that our frontline workforce--I believe it to be 
one of the best in the world. I really do. I've seen their 
dedication. I've talked to them. I've been down to FLETC 
multiple times now. I meet with as many of the classes as I can 
when I go down there, and that is a world-class institution, 
which is why I was really excited about the opportunity to 
stand up a full-time academy down there. And Connie Patrick, 
who runs that outfit, is one of the best in the world.
    Mr. Carter. Absolutely.
    Mr. Neffenger. And we're looking forward to continuing to 
develop that. My goal is ultimately to train every single 
employee of TSA through that academy.
    Mr. Carter. Good.
    Mr. Neffenger. That's the plan in the future, and we've got 
a pretty aggressive plan, a pretty ambitious plan, but I'm 
getting a lot of support from Congress on that, and I really 
appreciate that.
    Mr. Carter. Well, I just want to make sure we differentiate 
between the training portion of it and the management ----
    Mr. Neffenger. Yes, sir, that's exactly right.
    Mr. Carter.--once they get there because we obviously, as 
you can tell, a lot of upset people here today, and obviously, 
we have a management problem at TSA, and we are depending on 
you to get that straightened out.
    Mr. Neffenger. And that's what I've been tackling, yes, 
sir.
    Mr. Carter. Okay. Well, let me pivot for just a second and 
talk about something else, a different subject. A couple of 
weeks ago we had some employees of TSA here who had testified 
before us, and you are familiar with that, and they talked 
about the involuntary directed reassignments. Some of these 
that we had to testify before us had gotten excellent marks and 
in fact had gotten awards in being recognized for their 
outstanding performance, their job performance. And yet, they 
were reassigned against their will.
    And the thing that concerns me is not just, you know, the 
upheaval of having to move somewhere else for these people. 
Obviously, that is a very trying time for families and for 
employees, but the cost in it. What we were told is that their 
relocation costs were well over $100,000. Is this really 
happening?
    Mr. Neffenger. I believe it did happen. I share the same 
concerns you do. I stopped that policy completely. We don't do 
directed reassignment.
    Now, that said, I think it's important for an operating 
agency to have the ability to move people periodically. You 
have to do that. I mean, it's a security agency ----
    Mr. Carter. And I think they understand it, but ----
    Mr. Neffenger. And ----
    Mr. Carter.--what their concern was ----
    Mr. Neffenger. And it needs to be ----
    Mr. Carter.--is they were being disciplined as a result.
    Mr. Neffenger. No, and that's what my concern was, too, so 
I've put some very strong controls over that process. I'll 
share with you the nature of those controls so that we don't 
take up too much committee time, but I will tell you that I'm 
as concerned as you are about that. I--those reports greatly 
distressed me. I stopped that process. It's not going to happen 
again.
    Mr. Carter. Good. So we can take your word that it is over 
with?
    Mr. Neffenger. Yes, sir. You can absolutely take my word on 
that.
    Mr. Carter. Okay. Well, thank you. I appreciate that. And 
again, thank you for your dedication to FLETC because--and 
again, Mr. Chairman, I am going to try to get that together, 
but I want everyone to understand what a great facility this 
is. This is an example of the Federal Government working.
    Mr. Neffenger. Yes, sir.
    Mr. Carter. Thank you, and I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Michigan, Mrs. 
Lawrence, for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chair.
    I would like to examine the hiring and the role of human 
resources at TSA in more detail. In 2008 during the Bush 
administration, TSA awarded a $1.2 billion human capital 
service contract to Lockheed Martin. Under this contract, known 
as HRAccess, Lockheed administered the agency's process for 
recruiting and hiring and is also responsible for personnel and 
payroll processing services such as position classification. 
Administrator, is that correct?
    Mr. Neffenger. That was the case, yes, ma'am.
    Mrs. Lawrence. So many of the improper personnel practices 
that the whistleblowers alleged at the last hearing, including 
improper hiring and directed reassignments, would have occurred 
while Lockheed was providing these services to TSA. Is that 
correct?
    Mr. Neffenger. It was during the same time period, yes, 
ma'am.
    Mrs. Lawrence. Okay. On January 29 the inspector general 
issued a report about the TSA's contract with Lockheed Martin. 
The report states that among other performance deficiencies 
there were incidents in which Lockheed Martin failed to handle 
personally identifiable information properly. Is that correct, 
Mr. Roth?
    Mr. Roth. Yes, ma'am.
    Mrs. Lawrence. The report also found that Lockheed Martin 
``failed to consistently refer to eligible veterans on job 
announcements. Ultimately, the report stated that the Lockheed 
Martin hiring team ``reported a total of more than 150 veterans 
who were not referred on six different job announcements.'' Mr. 
Roth, is that correct?
    Mr. Roth. Yes, ma'am.
    Mrs. Lawrence. So if Lockheed Martin failed to follow our 
Federal regulations in regards to the competitive service 
hires, particularly veterans, preference, this is a simply 
intolerable. So Administrator, are you familiar with the 
inspector general's report?
    Mr. Neffenger. I am, yes, ma'am.
    Mrs. Lawrence. Okay. So when does the TSA's contract with 
Lockheed Martin end?
    Mr. Neffenger. It's coming to an end this year, and we are 
completely restructuring our approach to that. I would like TSA 
to own more of its hiring, recruitment, and personnel policies, 
and so we're restructuring that completely. It's part of the 
plan to completely overhaul the human resource management 
program of the agency.
    Mrs. Lawrence. In lieu of the contract ending with Lockheed 
Martin, is this going to be put out to bid again? And when you 
say ``assume,'' do you have the capacity and the resources as 
far as budget to be able to take on more of these 
responsibilities in hiring?
    Mr. Neffenger. We don't have all the capacity we need, and 
what I'd like to do is if I can get back to you with a fuller 
answer for the record, we can show you what the plan is, what 
the strategy is for moving forward beyond the HRAccess 
contract.
    Mrs. Lawrence. Well, I want to be on the record that the 
issues that were brought forward in the hiring process, and we 
being a Federal agency, is totally unacceptable. The fact that 
we are ending a relationship with an industry or company that 
did not meet our benchmarks is refreshing, but I don't want to 
hear that we are taking on the responsibilities ourselves and 
them come back later with concerns because you weren't able to 
handle the capacity.
    Mr. Neffenger. Yes, ma'am, I share those same concerns. And 
we have to do this in a very deliberate way, in a way that 
protects our workforce as it currently exists and in our 
potential workforce for the future.
    Mrs. Lawrence. Mr. Roth, did you make any recommendations 
based on your findings on what TSA could do to improve their 
hiring practices?
    Mr. Roth. Yes, ma'am, we did. We made five different 
recommendations. TSA agreed with each of those recommendations, 
and we're in the process of doing an audit follow-up to ensure 
that in fact TSA is doing what they said that they would do.
    Mrs. Lawrence. Thank you. And I look forward to moving 
forward under your leadership and protecting a group of 
employees in our Federal Government, as so many others are, but 
that TSA, being a Member of Congress and in the airport 
constantly, the respect I have for that agency, the need for 
good foreign leadership and accountability that we saw through 
this situation, we need to move forward, and I support you in 
the future. Thank you.
    Chairman Chaffetz. I thank the gentlewoman.
    I will now recognize the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Inspector General Roth, I want to go on record to not only 
thank you but your entire team for your service. I have great 
admiration for your role and the roles of your colleagues 
across the Federal workforce.
    But I have a top-five list, and I would say you and your 
team are in my top-five list for not only doing insightful work 
but thorough work, actionable work, and follow-up work that 
provides a real tool for Members of Congress. And so I want to 
make sure that the record reflects that.
    Mr. Roth. Thank you.
    Mr. Meadows. Administrator Neffenger, are you familiar with 
Federal Air Marshal Robert MacLean?
    Mr. Neffenger. Yes, sir, I am.
    Mr. Meadows. Okay. Are you familiar with the fact that the 
courts have overturned TSA's assertions that his whistleblower 
disclosures were not prohibited by law?
    Mr. Neffenger. Yes, sir, I am.
    Mr. Meadows. Okay. Are you aware of the fact that it has 
been over a year since an administrative judge has indicated 
that those disclosures should indeed be protected?
    Mr. Neffenger. Yes, sir.
    Mr. Meadows. Okay. So if you are aware of all of those, and 
in light of the fact that Mr. Cummings asked do you tolerate 
retaliation, in what scheme could you not see the fact that he 
has been reinstated but yet no raises, he still continues to be 
paid at a position--and not put in a position that he would 
have been in had he not been fired? At what point can you 
justify that that is not retaliation?
    Mr. Neffenger. Well, I don't believe I did. I believe he 
was reinstated as required by the decision ----
    Mr. Meadows. At a pay that he was that in 2005. Do you know 
any other TSA employee that is at a pay that he was at in 2005?
    Mr. Neffenger. Well, I'll double-check the pay ----
    Mr. Meadows. No, you don't have to double-check. I know.
    Mr. Neffenger. But I'm--off the top of my head, I can't 
give you the exact pay of any--of TSA employees.
    Mr. Meadows. Do most TSA employees get a raise?
    Mr. Neffenger. Well, you get the annual cost-of-living 
increases that are authorized by ----
    Mr. Meadows. So would you say that if he didn't, would that 
be retaliation?
    Mr. Neffenger. Well, I'll check to see. I'm--I would be 
surprised ----
    Mr. Meadows. Well, no ----
    Mr. Neffenger.--if he didn't get ----
    Mr. Meadows. Yes or no? If he is getting paid the same that 
he got paid in 2005, is it retaliation?
    Mr. Neffenger. I don't--I'd have to see the facts of the 
case. I wouldn't necessarily call it ----
    Mr. Meadows. Well, I am giving you the facts of the case. 
Is it retaliation or not?
    Mr. Neffenger. Depending on ----
    Mr. Meadows. Because let me tell you, what really bothers 
me is I protect my whistleblowers, and for you to get up here 
and talk about how wonderful the rank-and-file is and how you 
are looking out for their best interest and to see evidence 
that retaliation continues to go, it has a chilling effect, 
wouldn't you think?
    Mr. Neffenger. If in fact there is retaliation, I will look 
into ----
    Mr. Meadows. Well, why is the ----
    Mr. Neffenger.--the situation with that.
    Mr. Meadows.--Office of Special Counsel having to open a 
full investigation?
    Mr. Neffenger. On Mr. MacLean?
    Mr. Meadows. Yes. Why are they having to do a full 
investigation?
    Mr. Neffenger. Are you talking about the one that was 
already done ----
    Mr. Meadows. I am talking about the one they are about to 
embark on.
    Mr. Neffenger. Well, if they're opening one again, it's 
because he's made an allegation that there's been retaliation. 
I support his due process to investigate that. I am not 
familiar with the specifics of this current situation ----
    Mr. Meadows. Well, don't you think you ought to be?
    Mr. Neffenger. I'm familiar with the fact that we've 
reinstated him and that he now is in position to compete for 
whatever position he desires to compete for ----
    Mr. Meadows. You know ----
    Mr. Neffenger.--in the organization.
    Mr. Meadows. You know, Administrator, let me just tell you, 
that testimony is very troubling to me because what I am not 
going to tolerate is retaliation on whistleblowers, and that is 
what it looks like to me.
    Mr. Neffenger. Well, I don't tolerate it either, and I 
promise you I will--following this ----
    Mr. Meadows. So can you get back to this committee within 
30 days with the way that you are going to rectify it so the 
Office of Special Counsel doesn't have to do a full 
investigation?
    Mr. Neffenger. I will follow up on this colloquy to 
determine what the actual situation currently is.
    Mr. Meadows. So do I have your commitment ----
    Mr. Neffenger. I have your commitment ----
    Mr. Meadows.--that ----
    Mr. Neffenger.--that I will get back to you with what I 
have found ----
    Mr. Meadows. An action plan.
    Mr. Neffenger.--involving that ----
    Mr. Meadows. An action plan.
    Mr. Neffenger.--and if necessary, an action plan, yes, sir.
    Mr. Meadows. Within 30 days to the chairman?
    Mr. Neffenger. Well, I will get back to you exactly with 
what I find. I'm interested in ----
    Mr. Meadows. Well, that is not an answer.
    Mr. Neffenger.--what you've just told me.
    Mr. Meadows. Okay. What is a reasonable amount of time 
there, Administrator?
    Mr. Neffenger. Well, I can do it within 30 days. As I said, 
what I want to do is look at--this is new information that 
you're providing to me that I'm not aware of. I need to look at 
this ----
    Mr. Meadows. Yes, you have done your research. This would 
not have been a shock that this might have come up today. Is 
that a shock to you?
    Mr. Neffenger. Well, I'm aware of the previous issue 
concerning ----
    Mr. Meadows. All right.
    Mr. Neffenger.--this Federal air marshal.
    Mr. Meadows. Let me dispense with the rhetoric. Get it 
fixed where we don't have to waste taxpayer dollars on a 
special investigation into this. You are the guy in charge. We 
are going to hold you accountable.
    And I will yield back. I will expect a response to the 
committee in 30 days.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Oklahoma, Mr. 
Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    I share my colleague's concerns obviously about 
whistleblowers. I think while everyone who has the mantle of 
responsibility certainly wants to do right with their 
organization, when we do see individuals that have the courage 
to come forth, they have to be protected. I think that is the 
bipartisan motivation of everyone on our committee today.
    I want to take questions more on the security end and take 
it in a little bit different direction, however. Inspector 
General Roth, I, too, share my colleague's, you know, opinion 
of the confidence of your office and your personal diligence. 
The record has just been outstanding. But my question today 
deals with Vapor Wake dog teams in terms of security. And you 
will see why here in a moment. Did the IG in the reports make 
any recommendations on Vapor Wake dog teams and how they should 
be deployed or how they should be used at different airports?
    Mr. Roth. We have not looked at that issue. My 
understanding is that GAO may have done some work on that, but 
we have not.
    Mr. Russell. Okay. I appreciate that.
    And, Admiral Neffenger, as a preface, first off, I take 
some comfort knowing that you are at the helm of this 
organization. I don't think anyone who is advanced to your 
level as an admiral in our Coast Guard who has protected our 
shorelines and protected our borders has anything other than 
the interest of the defense of our country, and I appreciate 
that. I also think that it probably gives you incredible 
insight in dealing with a myriad of problems in a very complex 
and at times lethargic organization.
    In Oklahoma City in my district the Vapor Wake dog team 
issue came to mind because acting Federal security director 
Steve Cartwright had cited that it was the IG's report as the 
reasons for the elimination of Vapor Wake dog teams from 
airports such as Will Rogers World Airport, and it was due to 
the need for performance and screening and getting people 
through, and therefore, these airports would have to lose their 
dog teams.
    And in the case--although we had Will Rogers that was one 
of the charter five original airports in the training of these 
teams, they train for such teams very effectively, allowed 
great throughput, the entire program was eliminated from that 
airport, and I suspect it is probably not the only one.
    And so my question to you is why would a Federal security 
director make the claim that it was the IG and their findings 
that would call for the elimination of that program, and why 
would we not want these teams at airports that might have less 
capacity other than a huge airport, but they also might have 
greater vulnerability for infiltration? It seems to me that 
security-wise it makes good sense. And I realize that this was 
not part of the normal stuff, but it is very important for 
security.
    Mr. Neffenger. Well, I'm not sure what the Federal security 
director's discussion was. Let me tell you from my perspective 
what we've done.
    Mr. Russell. Sure.
    Mr. Neffenger. We are--I like the--we call them passenger 
screening K-9s, Vapor Wake dogs. These are dogs that work the 
passenger line, and they look for trace odors and they follow 
them back to their source. It's a tremendous resource. It's a 
great explosive detection technology that we have, and it can 
move people very efficiently through a security line.
    I don't have as many of those dogs as I'd like to have, and 
so to meet--so this is my decision, so I'm the guy you need to 
look at for this. It was my decision to take dogs from some 
airports that aren't seeing as much volume as some of the 
largest airports on--for the coming summer in order to meet 
what we know to be the real passenger volumes that we're going 
to see in these large airports. It was never my intention to 
eliminate their use.
    We're also--so right now, we have about 322 total dogs that 
TSA operates. Most of those were trained to do cargo sniffing, 
not passenger screening. We're in the process of converting as 
many of those as we can to passenger screening K-9s. It takes 
about a month or so to do that.
    Mr. Russell. And I appreciate ----
    Mr. Neffenger. And we're continuing to do that.
    Mr. Russell. I would just ask--and again, security has been 
much of my life and a lot of my interest here in Congress. I 
would ask that we would consider--I mean, if I were an enemy, I 
would infiltrate in small or regional airports simply because 
there is a better chance of infiltration than in a large one. 
In deploying all the assets, once you get in the loop, you are 
inside the loop no matter where you originated or flew from.
    And so I would ask that you relook some of this 
specifically in a vulnerability stance, not necessarily a 
regional or political stance. That is irrelevant in my view 
when it comes to security of the Nation. But we ought to 
relook, rather than putting everything where we expect to have 
a problem and maybe leave areas vulnerable where we don't.
    And with that, Mr. Chairman, I will yield back my time.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from Alabama, Mr. Palmer.
    Mr. Palmer. Well, I am the guy you have been waiting on, 
the last one.
    Mr. Neffenger, how many different assistant administrators 
have led the Office of Intelligence and Analysis since TSA was 
created?
    Mr. Neffenger. I don't have that exact number. I'll get 
that for you.
    Mr. Palmer. It is 11. And I ask that because it concerns me 
that that office would suffer from that rate of turnover. Would 
you agree with that?
    Mr. Neffenger. Turnover in offices is always challenging.
    Mr. Palmer. Well, particularly, the office that is 
responsible for your intelligence and analysis. Have you looked 
into that?
    Mr. Neffenger. Yes, sir. In fact, I've brought in a new 
chief of intelligence this year, and, I mean, he's an 
intelligence professional, and one of the things I asked him to 
do was to ensure that we built a world-class, high-quality 
intelligence operation. And he's in the process of doing that.
    Mr. Palmer. And that is Mr. Bush?
    Mr. Neffenger. That's Mr. Bush, Tom Bush, yes, sir.
    Mr. Palmer. Are you aware of any significant security 
violations committed by OIA officials?
    Mr. Neffenger. I'm not sure if you're referencing anything 
in particular. I am ----
    Mr. Palmer. I am asking if you are aware of any security 
violations committed by OIA officials.
    Mr. Neffenger. I know that prior to my arrival there was an 
individual who was in charge of OIA who had been disciplined by 
the agency.
    Mr. Palmer. So that answer would be yes?
    Mr. Neffenger. Yes.
    Mr. Palmer. Do you believe OIA should abide by the 
professional standards of the intelligence community in 
handling classified information?
    Mr. Neffenger. That ----
    Mr. Palmer. Wasn't that what the issue was?
    Mr. Neffenger. It was ----
    Mr. Palmer. Classified information?
    Mr. Neffenger. My understanding, that was not the issue 
that that was about, no, sir.
    Mr. Palmer. Well, then what were the circumstances related 
to the departure of the former assistant administrator Stephen 
Sadler?
    Mr. Neffenger. Oh, I was--with Stephen Sadler--I need to 
familiarize myself with that case. I'm sorry, sir.
    Mr. Palmer. Well, there were multiple security violations 
that took place under his leadership.
    What percentage of TSA's intelligence and appropriation is 
used for vetting, and what percentage is used for traditional 
intelligence?
    Mr. Neffenger. I'll get you the exact number for the 
record, but we--a significant amount of our activity is spent 
on vetting, understanding the vetted population, but we also 
have a strong analysis branch that works very closely with the 
intelligence community members to provide specific intelligence 
assessments of transportation security challenges and risks.
    Mr. Palmer. Well, one of the--I am going to transition a 
little bit here. One of the things that I am concerned about is 
in our last hearing there were repeated reports that there are 
only three U.S. airports that currently require employee 
security checks. Are you aware of that?
    Mr. Neffenger. That's actually not correct. Well, it 
depends on what you mean by security checks. We vet anyone who 
holds a credential ----
    Mr. Palmer. I am not talking about that.
    Mr. Neffenger.--that gives them access.
    Mr. Palmer. I am talking about requiring them to go through 
the same kind of security that, say, a staff member ----
    Mr. Neffenger. So this would be screening of individuals as 
they ----
    Mr. Palmer. As they are coming into the property ----
    Mr. Neffenger.--enter the property?
    Mr. Palmer.--they are reporting for work, yes. I should 
have been more clear.
    Mr. Neffenger. Okay.
    Mr. Palmer. I apologize.
    Mr. Neffenger. There are currently, I think, three or four 
airports that do--that the airport themselves do a security 
screening. There are other places where employers provide 
security screening. But we are at varying levels across the 
system right now for direct screening. Everyone has access 
requirements, and that's a fundamental requirement. And those 
access requirements are with their badge, and those badges give 
you access to certain locations. And then there are some 
airports that have gone beyond that to do actual screening. We 
in TSA do random screenings throughout the sterile area of the 
airports as well.
    Mr. Palmer. Well, but that gets back to my concern. Every 
member of my staff, every member of--any Member of Congress's 
staff has to go through screening process. Their bags are 
screened. They have to take metal objects out of their pockets. 
They all have badges, okay? And that is part of my concern is 
that out of the thousands of people who work for TSA, does it 
not create any concern? I mean, it was reported that there were 
a number of TSA employees who had some tie to terrorist groups, 
and it just seems to me that they ought to go through the same 
screening process that ----
    Mr. Neffenger. Well, we've had no TSA employees that have 
ties to terrorist groups. We vet our people daily, and if we 
ever found that ----
    Mr. Palmer. I am not ----
    Mr. Neffenger.--they'd be gone.
    Mr. Palmer. Well, I am just telling you that in our last 
hearing ----
    Mr. Neffenger. We ----
    Mr. Palmer.--that came up, that it was reported that there 
were some who had some connection to terrorist--or potentially 
had terrorist ties. And I am bringing this up in the context of 
out of the thousands of people who work for TSA, all of whom 
have security badges, it just makes sense before they enter 
these critical areas that they go through a screening process 
like everybody else. Their bag goes through a machine, they go 
through the machine like everybody else.
    Mr. Neffenger. Congressman, I want to make sure I 
understand what we are saying. First of all, there's--there are 
the people who are not TSA employees who have access badges to 
airports, and they are--and we vet those people continuously 
against--there's a population of about 900,000 or so in the 
aviation system that have access badges of some type. And it's 
varying types of access and they're not all accessing the same 
locations.
    Those people are continuously vetted against the terrorist 
screening database. They're now continuously vetted against 
extended database elements, the so-called TIDE database. And 
they're also recurrently vetted against the criminal database. 
We are piloting a continuous vetting pilot with the FBI.
    Mr. Palmer. We are not talking about the same thing.
    Mr. Neffenger. And then TSA employees are also vetted 
against those--our own employees.
    Mr. Palmer. We are not talking about the same thing. I 
mean, it is also been reported that there are thousands of the 
badges that have been lost or stolen, let me say, that haven't 
been accounted for. My question is when they report for work, 
do they have to put their bag on a conveyor to go through a 
machine to see what is in the bag? And do they go through ----
    Mr. Neffenger. In some locations they do, and in some 
locations they do not.
    Mr. Palmer. Well, then my contention is is that it ought to 
be all locations.
    I yield back.
    Chairman Chaffetz. I haven't asked questions yet, so I 
would like to recognize myself now for probably more than 5 
minutes.
    So let's talk about the involuntary reassignments or the 
directed reassignments. You have spoken about that. You said 
there is or is not evidence that that was done as a retaliatory 
action?
    Mr. Neffenger. I do not have any direct evidence. What I'm 
waiting for is to see what the results of the Office of Special 
Counsel investigation tells me with respect to a couple of the 
people who have made such allegations.
    Chairman Chaffetz. Well, the Office of Special Counsel has 
already stated Andrew Rhoades' directed reassignment, as well 
as Becky Roering's suspension, due to evidence that there were 
cases of improper whistleblower retaliation. Are you telling me 
that they haven't given you the final report? Is that what you 
are waiting for or ----
    Mr. Neffenger. I am waiting for--as Mr. Rhoades has an 
outstanding investigation, which is still pending. In the 
meantime, I was pleased to see that, prior to my arrival, that 
that had been stayed and he is still located in the ----
    Chairman Chaffetz. What about Becky Roering's?
    Mr. Neffenger. Same with hers. I understand that hers is 
still undergoing review as well.
    Chairman Chaffetz. And you have no other evidence of any 
other ----
    Mr. Neffenger. I myself do not have any ----
    Chairman Chaffetz.--retaliation? Do you have any other 
evidence of any other types of retaliation above and beyond the 
directed reassignment tool that they had used?
    Mr. Neffenger. I don't have personally any knowledge of any 
other retaliation. If I see it, I will take action to address 
it.
    Chairman Chaffetz. Mr. Roth, do you have anything to shed 
on this?
    Mr. Roth. I do not. I don't have any evidence that I could 
share at least today.
    Chairman Chaffetz. Okay. Administrator, we have 
particularly over the last 6 months--I have got kind of one 
page--a two-sided page here of outstanding requests that we 
have from this committee. We will give you a copy of this. I 
don't expect you on the spot to respond to it, but there are 
some that have had no--I see you have a copy there. Again, I 
don't you on the spot, but we need help getting these responses 
in a timely manner. Some have been good, but others have been 
not so good. Some we have had nothing on. We get very 
frustrated with having to do in camera reviews. We handle 
classified intelligence on a regular basis. I just need your 
support in responding to these outstanding requests.
    Mr. Neffenger. Yes, sir, I will.
    Chairman Chaffetz. I want to go back to what Mr. Palmer was 
talking about. You said you vet daily. When somebody--I want to 
get a crystal-clear picture. When somebody applies and goes 
through the process of working for the TSA, they get what sort 
of background check?
    Mr. Neffenger. It's a standard national agency check. It's 
the same type of check you do for people coming into the 
military first time. You do a criminal history background 
check, you check their name against the terrorist screen 
database, you look for any disqualifying activities, offenses, 
or the like in their background prior to coming on board.
    Chairman Chaffetz. And there are some infractions that 
would still be acceptable to be hired as a TSA ----
    Mr. Neffenger. There are. I can't enumerate those off the 
top of my head, but there are some ----
    Chairman Chaffetz. If you can provide that, whatever the 
current standard is.
    Mr. Neffenger. Yes, sir, I will.
    Chairman Chaffetz. And then you said you vet those daily, 
but how do you--if somebody were to get arrested, somebody had 
an assault charge or a murder charge or, you know, pick 
something heinous, how would you know that once they have been 
hired?
    Mr. Neffenger. Well, once--oh, you mean after they've been 
hired?
    Chairman Chaffetz. Yes, after they have been hired.
    Mr. Neffenger. Well, we do recurrent criminal history ----
    Chairman Chaffetz. How often?
    Mr. Neffenger.--background checks. I believe it's on a--I 
believe it's an annual basis. I'll verify that. And then we do 
daily recurrent--I mean, it's just a continuous test, check 
against the terrorist screening database for our employees.
    Chairman Chaffetz. Four hundred and fifty or so airports, I 
am not sure how many ports you are dealing with. How many of 
these--you mentioned 900,000 security badges of all sorts.
    Mr. Neffenger. In the aviation system.
    Chairman Chaffetz. In the aviation system. So how many of 
those are--do you have a sense of how many of those have 
biometric information, whether it would even be as simple as a 
photograph on them?
    Mr. Neffenger. Well, they all have photographs. As you 
know, those are issued--these are the badges that airports and 
airlines issue their individuals, and it's set individually at 
each airport. So a badge that you have for Atlanta Hartsfield 
will not work in any other airport. So these are issued by 
employers and the airport. It's--usually the standard is set 
according to--there's a Federal security standard that they 
have to meet in order for the badge--so they all have to have 
photographic IDs and they all have to have a biometric 
identifier associated with them, but not all of those biometric 
identifiers are necessarily in use for access purposes at every 
airport.
    Chairman Chaffetz. When you say biometric, do--one of the 
issues in the past is they didn't have readers. They didn't 
have electronic readers for each of these ----
    Mr. Neffenger. Well, I don't want to confuse this with the 
TWIC card, the Transportation Workers Identification 
Credential. It's not a credential that's used in the aviation 
system. The Transportation Worker's Identification Credential 
is not a credential that's used in the aviation system. That's 
the one that is primarily used in the maritime transportation 
system and people who are interacting with that.
    That one does not currently have a--readers for it. So that 
biometric in the maritime world is not currently in use, so 
it's still a--I mean, it's a badge that--or card that's issued 
with a background check. It has a biometric on it but not all 
the readers are out there. But in the aviation system--so 
that's a government-issued card. It's a joint program between 
the Coast Guard and TSA. It does not apply to aviation workers. 
The--that's a--there's a much larger population of people who 
hold that TWIC card.
    Chairman Chaffetz. So you shouldn't be able to use it in an 
airport?
    Mr. Neffenger. You ----
    Chairman Chaffetz. You use it in the maritime ----
    Mr. Neffenger. You cannot use it in an airport.
    Chairman Chaffetz. Shipping, cruise lines, things like that 
----
    Mr. Neffenger. Yes, sir.
    Chairman Chaffetz.--is that what you are talking about?
    Mr. Neffenger. Yes. Truckers that interact with the ports 
and the like.
    Chairman Chaffetz. Okay. That is one of my bigger concerns 
is the access that so many people have. I mean, Dulles airport 
alone my understanding is there is some 16,000 security badges 
out there.
    To Mr. Palmer's point, what he was talking about is, you 
know, why not check people who go--why not check TSA employees 
as they go in and out? And you check a pilot. I stand there 
and, you know, they go to the front of the line, as they 
should. Pilots are checked. My goodness, if we are trusting 
somebody, it is trusting the pilot. Why not check each person?
    Mr. Neffenger. Well, we do check out--each person. They do 
recurrent drug testing, they do--we vet them against the 
databases, we watch them every day. Remember, these are people 
who are standing in the security checkpoint day in and day out 
and we pay close attention to ----
    Chairman Chaffetz. Yes, but if they pop some--pick whatever 
you want--in a backpack and they just walk past, you would 
never know, correct?
    Mr. Neffenger. Well, that's not necessarily true. We do a 
lot of integrity testing. In fact, we have a pretty good 
integrity testing program, I think, and we--if we find people 
doing wrong ----
    Chairman Chaffetz. No ----
    Mr. Neffenger.--we get rid of them.
    Chairman Chaffetz.--you are checking and screening every 
person that goes through except the TSA people.
    Mr. Neffenger. Well, they're--I mean, they're checked by 
definition when they show up in the morning. They are vetted 
every single day. Like I said, we look at them every single 
day. They're probably some of the most watched people in the 
transportation system because they're under the watchful eyes 
of supervisors, they're under the watchful eyes of the other 
screening workforce. So I believe that we're doing a very good 
job of keeping track of those folks. These are really good 
people, and they've taken ----
    Chairman Chaffetz. By and large, I am sure they are really 
good people, but, again, when you have a zero tolerance for--
you have to keep security at its highest level. I just don't 
understand that. We check a pilot, we check the flight 
attendants, but we don't check the TSA folks going. And you 
have had arrests. I mean, there have been problems.
    Mr. Neffenger. We have had arrests.
    Chairman Chaffetz. It is not as if it has never happened 
before. Your ability to move drugs or weapons or anything else 
across that line--Mr. Roth, do you have any insight into this?
    Mr. Roth. I don't, no, Congressman.
    Chairman Chaffetz. I want to move to dogs if I could. I am 
a huge fan of dogs. The person I want to sit next to on the 
airplane is the person who has had their luggage screened, has 
had their handheld information screened, they walked through a 
metal detector, and they have walked by a bomb-sniffing dog.
    I have never seen some of the technology that is used at 
the airport. I have never seen it at the White House. I don't 
see it in Afghanistan where they are dealing with improvised 
explosive devices on a daily basis. I don't see it in a lot of 
other places. Europe has banned some of this technology, and 
yet we still use it here in the United States.
    And I appreciate your comments about the dogs, but the 
single best way to secure an airport from an improvised 
explosive device is a dog. Would you disagree with that or 
agree with that?
    Mr. Neffenger. Yes, I think it's a hugely important piece 
of the security environment. I like dogs, too. I'm a big fan of 
them. In fact, I've been advocating for more K-9s in the 
screening--in the aviation security environment.
    Chairman Chaffetz. We need more of them, and I hope the 
appropriations follow appropriately.
    I want to compliment TSA also on its Instagram presence. 
You want to see an entertaining Instagram, go ahead and go to 
the TSA one. I will put in a plug for it. You have got some, I 
think, 400 plus thousand people that are looking at it. But it 
is also kind of scary because almost on a daily basis, I mean, 
the one I looked at just now there was a live smoke grenade 
that somebody tried to bring onto an airport. At BWI there was 
a picture of a gun that they had taken off a person.
    The rise of people bringing or attempting to bring guns on 
an airplane is astronomical. I mean, the statistics on this are 
quite high. My question--and maybe you can shed light on what 
that is happening--but I don't see that there is any 
consequence. I don't hear anybody is getting prosecuted. We 
have a $10,000 fine, you can go to jail, but find me a person 
in this country that has violated that. And if you don't know, 
if you don't understand at this point in time that you can't 
bring a gun on the airplane, where in the world have you been 
living?
    And a lot of people I know will come to the TSA and say, 
oh, well, I forgot I had my gun in my backpack, gosh darn it. 
Well, go put it back in your car. I mean, I believe in the 
Second Amendment. I am as pro-gun as you get. But if you are an 
idiot and you don't know you have got a gun on you and it is 
loaded and you are trying to bring it on an airplane, why 
aren't some of these people going to jail every once in a 
while?
    Mr. Neffenger. Mr. Chairman, I am a shocked as you are by 
people who bring guns to the airport. And you're right, we saw 
many, many more last year than we saw the year before. TSA is 
not a law enforcement agency so I don't have the authority to 
take action against individuals. The protocol is that when we 
see a gun, it gets held inside the x-ray machine. We call local 
law enforcement, and then it's up to local law enforcement and 
the laws of whatever jurisdiction that they cover to take 
action against that.
    We can take action against an individual. We can strip them 
of their pre-check eligibility if they come through a pre-check 
line, but it's--we have to turn them over to local law 
enforcement and then it--and is whatever the law is it ----
    Chairman Chaffetz. Well, what would the call be--what would 
you like local law enforcement to do?
    Mr. Neffenger. Well, again, it--you--we know that we have 
laws in this land where people are allowed to conceal carry, 
where they are allowed to open carry, and in many States the 
local law enforcement says take that back out to your car and 
then come back in. Sometimes they get arrested. If you're in 
New York State, you'll get arrested. If you're someplace else, 
you might not get arrested.
    I would--you know, I just don't want that stuff coming 
through the checkpoint. I mean, it's astonishing what people 
try to bring through checkpoints these days.
    Chairman Chaffetz. Okay. So live smoke grenade, trying to 
bring it on an airplane, what should happen? Are you 
encouraging--I guess I am trying to ----
    Mr. Neffenger. Well, we are working very hard. We encourage 
local law enforcement to take as strong of action as they can. 
I think if somebody brings a live smoke grenade onto a plane, 
they shouldn't be allowed to fly anymore, but I don't have the 
authority to make that decision.
    Chairman Chaffetz. All right. I have far exceeded my time.
    Let's recognize the gentleman from Wisconsin, Mr. Grothman, 
for 5 minutes.
    Mr. Grothman. Thank you.
    In the past, the committee heard numerous accounts of line 
staff being punished for minor infractions while high-level 
managers went unpunished for significant abuses. Is there a 
double standard if a TSO employee can be fired for picking up a 
pen during integrity tests but senior officials who retaliate 
against their subordinates or engaged in serious misconduct 
such as lying to the police about a DUI are allowed to keep 
their job?
    Mr. Neffenger. I think that there needs to be--we're doing 
this. I think there needs to be work done on the way in which 
we do discipline and performance management across the board. 
I--the law--as you know, the Aviation and Transportation 
Security Act set up somewhat of a bifurcated system, and it 
needs to be consolidated, it needs to be coordinated.
    Mr. Grothman. Okay. Next, this is more of a comment, and I 
want you to respond because I think Congresswoman Maloney said 
something I don't agree with. I obviously on this job fly a 
couple times a week. I have never seen a situation in which the 
pre-check line is longer than the regular line, and I think I 
can probably speak on behalf of most people. I wish you would 
put more people in the pre-check line because we would get 
things through quicker. And I do hear people complain, and I 
realize you have got a difficult job, but they wish they could 
go through the lines faster. So I don't know, you know, who she 
talks to, but just so you know there is another side to the 
story.
    And I have got another question for you. TSA spent $47,000 
on an app to randomly assign people to go right or left that 
anybody with basic knowledge of codes could do. Do you feel 
that app is worth what TSA paid for it?
    Mr. Neffenger. I think that was an excessive amount of 
money to pay for that. We don't use that app. That was done, as 
you know, back in 2013. And we're not using that.
    Mr. Grothman. Okay. Mark Livingston, the former deputy 
assistant administrator, testified that a watch floor 
transformation that was supposed to cost $3-3.5 million cost 
approximately $12 million because it was performed improperly. 
Do you want to comment on that? Are you familiar with that?
    Mr. Neffenger. And I'm not sure which watch floor 
transformation he's referring to, but what I've done is we've 
done a complete review of our entire acquisition process, and 
from my perspective, there are lots of opportunities to save 
taxpayer money in our current processes.
    Mr. Grothman. We will give you one more thing that Mr. 
Livingston said. He said there is a still a half-million 
dollars worth of equipment sitting in a box in the office. Do 
you want to comment on that? Are you familiar with that?
    Mr. Neffenger. I'm not familiar with that, but I'm going to 
go back and look for that.
    Mr. Grothman. Okay. I will yield the remainder of my time.
    Chairman Chaffetz. I will go to Mr. Cummings for 5 minutes.
    Mr. Cummings. I am going to be very brief. First of all, I 
want to thank both of you for your testimony.
    After the last hearing we had on TSA, Admiral, we had a--my 
staff has just given this to me this morning, but it was a 
letter, a handwritten letter from one of the whistleblowers. 
And I have never read a letter into the record that was 
addressed to me like this, but I am reading it for a reason, 
and I will explain it in a minute. Again, this is one of the 
whistleblowers.
    It says, ``Dear sir, thank you for your leadership and 
direct fairness in the hearings on the issues of TSA's current 
and potential misconduct. You spoke truth to power when you 
asked and demanded a fair and balanced hearing. You breathe air 
into our agency and gave hope to all the men and women when you 
asked for the facts. We, all of us at TSA, now believe that 
Congress can and will fix TSA. Thank you, sir. You have 
inspired all of us to renew our faith in the process of 
accountable leadership, and I wish you continued success and 
great health.'' And I am going to leave the name out.
    And the reason why I read that letter is because there are 
people depending on us, and they just want to get it right. You 
know, a lot of times I hear negative things about employees, 
that is Federal employees and State government, but I tell 
people that a lot of these people--and most of them, they come 
out, they have a mission, and they want to serve the public. 
And they want to treat them right.
    There are stresses that come with the job. I mean, any 
elected official will tell you that they could be at the 
supermarket and maybe somebody will come up and say, hello, and 
then somebody will say, Congressman--they are just trying to 
get out of the supermarket--about the seventh or eighth person, 
you know, the person doesn't realize that they are the seventh 
or eighth person that has called him and doesn't realize he has 
got to get home. So that is part of the job.
    And I realize that a lot of the things that the employees 
do, I am sure, can get monotonous. And the chairman was just 
showing me the photos of all the knives and the guns and 
grenades and things that people I am sure in many instances--
most instances it is accidentally are trying to get through. So 
we do not have room for error.
    But I read the letter because I want to remind you--and I 
know I don't have to do this, but there are so many people who 
want us to help. They want you to help, and they want us to 
help. And when I listened to those whistleblowers, and I heard 
all of their testimony, you know the theme that ran through the 
whole thing was that they simply wanted the best for the public 
and for the agency. They weren't showboating. They probably 
didn't even really want to be here, but they, like many of our 
Federal employees, most, they had a desire that their agency 
would be the elite of the elite.
    And that is the kind of reputation I want to get to. I want 
people to be very proud to be a TSA employee. And I want them, 
when they say, you know, I work for the TSA, to stick their 
chest out and say you know what, this is a great organization.
    But again, keep in mind what I said. If you go back and you 
listen to all the things that they said, they talked about a 
few bad apples in the leadership and excluded you, by the way. 
They said that you are doing a good job. So I just beg you to 
keep all of that in mind. And I really appreciate your efforts. 
I know it is difficult. Mr. Roth, I want to thank you.
    And I hope that you all will continue to work together 
because that is what it is all about. This is how it is 
supposed to work. We need the critical eye of just a great 
lawyer and a great IG like you, Mr. Roth, but then we need the 
response to be appropriate.
    And so with that, Mr. Chairman, I yield back. And again, I 
thank you, Mr. Chairman, for this hearing.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize Mr. Mica from Florida for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    I spoke earlier about the attrition rate, which overall is 
about 10 percent, about 4,500 a year, and then the new hires, 
we are losing about 30 percent of those and 38 percent of the 
non-TSO, which is information we got from you.
    The problem is that is an average. You have 30 airports in 
the country that handle 75 percent of the traffic, and those 
numbers are much higher. I know Los Angeles, a whole host of 
the big ones have had a problem recruiting, retaining, 
training, and hiring.
    You actually have deferred--you told Mr. Hice you have lots 
of people going through with few exceptions to FLETC, but you 
actually have given authority to 21 airports, almost all of 
those the largest in the country, isn't that correct, for local 
training and hiring?
    Mr. Neffenger. Well, it won't be at 21 locations. We've 
given the authority ----
    Mr. Mica. Waivers to 21 locations.
    Mr. Neffenger. Right. We've given ----
    Mr. Mica. We have Boston, O'Hare ----
    Mr. Neffenger.--on an as-needed basis, yes, sir.
    Mr. Mica.--JFK ----
    Mr. Neffenger. That's right.
    Mr. Mica.--La Guardia, Miami, LAX. I mean, these are the 
big ones, too.
    Mr. Neffenger. Yes, sir.
    Mr. Mica. And I don't generally have a problem with that. I 
think that you can get people to do the training, and there are 
firms that will do that may be internally. It can be done. But 
I just want to make sure that was in the record. I disagree 
with the gentleman who last spoke. And I talked to him about at 
every airport screening the employees through a metal detector 
and all of that. In Orlando and Miami it is a waste. I don't 
know if you are still doing it in Atlanta.
    You need to be vetting the employees first before they are 
hired, and you need to be vetting even the TSA people, which 
are not all getting cleared. The people who work in the secure 
areas, we had a hearing, and thousands of them, we didn't have 
Social Security numbers. Hundreds and hundreds of them are 
foreign nationals with working papers we don't know anything 
about. That is what concerns me is the people who have access 
to secure areas. So vetting and then monitoring those people, 
knowing who they are.
    The dogs, and there is an opinion about dogs. Dogs right 
now don't deal with the threat that we face. The threat is a 
non-nitrate-based explosive. Dogs can't detect that, neither 
can the equipment you have got at the airport. You know that, 
don't you, sir? Just say--it is yes.
    Mr. Neffenger. Well, I ----
    Mr. Mica. I can tell you it is yes because I have tested 
the system, and I have ordered more tests of the system for the 
first time in years and will reconfirm that.
    And this thing about getting guns and knives and all of 
that, they aren't going to take down a plane. Those people 
don't pose a risk. Maybe they did it accidentally. Do you know 
any of them that intended to take down a plane of those guns 
and knives that you--none of them. But I do know that known 
terrorists have gotten through the system. That concerns me.
    I do know that your Intel and Analysis division is in chaos 
from what I have been told. Your intel division lacks a 
classification guide, we were told, which is a breach of 
classification guidelines. Did you know that?
    Mr. Neffenger. I don't believe we lack any guide, sir.
    Mr. Mica. Well, again, that is what we are told. It says it 
lacks a classification guide. This is information given to us, 
also reportedly does not have the capability to internally vet 
and disseminate intelligence in real-time. Any intelligence 
information dissemination in the field must be first vetted and 
then approved by DHS and FBI, sort of a bureaucracy. These are 
other reasons why we failed to connect the dots in the past, 
and failing to connect the dots in the future is a concern. And 
again, I would ask you to respond also to that on intelligence 
analysis.
    The SPP program, to solve your problem, you have got to get 
out of the screening business. You need to set the rules for 
the screening, oversee it, and audit it and let the private 
sector do it. They do it for nuclear facilities, DOD 
facilities, some of our most secure facilities. You will never 
get it right with 45,000 personnel across the whole country. It 
is just not going to work. I can assure you no matter what you 
do.
    I want to speed up this SPP process. It takes a year. Can 
you prequalify people that can provide screening services?
    Mr. Neffenger. It depends--I'll have to check the exact 
rules. I know that we follow the ----
    Mr. Mica. But I would like to see that because this is the 
first thing. It requires 120 days. We will have dozens of 
airports that will opt out, but you can still set the rules. 
You get out of this mess and get into the security business, 
which will save us from another terrorist attack. I would like 
a response on how we can clean this up so it doesn't take that 
long as part of the record. And then ----
    Mr. Neffenger. Sure.
    Mr. Mica.--finally, Mr. Chairman, I have asked for some 
information about salaries, both within the District, and then 
overall I want to see for the record the amount for screening 
and the non-screening positions in your highest-paid positions, 
a complete list of them and the totals ----
    Mr. Neffenger. Yes, sir.
    Mr. Mica.--and salaries. Thank you. I yield back.
    Mr. Neffenger. Thank you.
    Chairman Chaffetz. As we wrap up here, Mr. Neffenger, the 
last point I just wanted to make, we have a request and I want 
to reiterate the bonus policy. One of the criticisms, I 
believe, from the inspector general is that there really wasn't 
a bonus policy in place. So what is it? In 2015, for instance, 
the senior members, the TSES members who made less than 
$160,000 were ineligible for a bonus even if they achieved the 
highest level of excellence. But if you made more than 
$160,000, even if your performance evaluation came in lower, 
you could get a bonus. That seems so upside down and wrong.
    Mr. Neffenger. I'll get you the policy for the record, Mr. 
Chairman, so that you can see what we've done.
    Chairman Chaffetz. Mr. Roth, do you have any comment on 
that?
    Mr. Roth. No, just what was in our investigation, which was 
that the policy was very sort of loose, but we had a commitment 
from TSA that they would fix the policy. My understanding is 
they have.
    Chairman Chaffetz. Okay. It is something we would like to 
look at. Mr. Roth, last question, what are your biggest 
concerns?
    Mr. Roth. Just the size of the enterprise, 2 million 
passengers a day, 450 airports, TSA as the checkpoint operator 
but also TSA as the regulator of the airports, it's a 
monumental task that's going to take time to fix.
    Chairman Chaffetz. Okay. We appreciate you both. We have 
the greatest confidence in the administrator but also in the 
inspector general, plays a vital role. And you each represent a 
lot of employees and a lot of people who are good, hardworking, 
patriotic people that are trying to do the right thing, and for 
that we thank you.
    We have a mutual symbiotic relationship in trying to weed 
out the bad apples, and they are there. And to the extent that 
we can make that better, smarter, more fair, I think it will 
improve morale, it will make the airports and the population 
more safe and secure, and we share that mutual goal. And so we 
look forward to continuing to work with you and thank you for 
your presence today. And thanks again to the men and women who 
do the good hard work every day.
    With that, the committee stands adjourned.
    [Whereupon, at 11:46 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
